<html>
<title> - NEXT STEPS IN SYRIA</title>
<body><pre>[Senate Hearing 112-608]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-608

                          NEXT STEPS IN SYRIA

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 1, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-695 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        











                            C O N T E N T S

                              ----------                              
                                                                   Page

Dobbins, Hon. James, director, International Security and Defense 
  Policy Center, RAND Corp., Washington, DC......................    11
    Prepared statement...........................................    15
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Indyk, Hon. Martin, vice president and director of foreign 
  policy, Brookings Institution, Washington, DC..................     6
    Prepared statement...........................................     8
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
Tabler, Andrew, senior fellow, Program on Arab Politics, 
  Washington Institute for Near East Policy, Washington, DC......    19
    Prepared statement...........................................    21

                                 (iii)



 
                          NEXT STEPS IN SYRIA

                              ----------                              


                       WEDNESDAY, AUGUST 1, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Casey, Webb, Shaheen, Coons, 
Udall, Lugar, Corker, and Isakson.

             OPENING STATEMENT OF HON. JOHN KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order. Good morning.
    Thank you all for being here with us today.
    We have a very distinguished panel. We are grateful for 
some good friends coming in here today to share thoughts with 
us about an issue that is really dominating concerns in the 
Middle East right now in many different ways and which presents 
a lot of complicated policy questions, and that is the evolving 
situation in Syria obviously.
    I think all of my colleagues will agree that we are 
currently looking at a dangerous and downward spiral in the 
heart of the Middle East and one that has the potential--not 
necessarily but certainly the potential--to threaten the 
security of key regional friends and partners, including Israel 
but other countries also. And it has profound strategic 
implications for our country and for other countries in the 
region. The international community, with American leadership 
and support, must continue to help the opposition both in 
ending Assad's reign of terror and in preparing for what comes 
next after he is gone.
    I know that reading today's newspapers, it is clear with 
Kofi Annan's mission and the difficulties he has faced that 
President Assad does not yet believe that, or at least 
certainly does not evidence any indication that he is 
contemplating that possibility. But most observers, most people 
analyzing the situation and seeing increasing defections, 
increasing violence, increasing capacity by the opposition, as 
well as other indicators, draw the conclusion that the days are 
numbered.
    We know that Bashar al-Assad and his supporters are 
steadily losing their grip, and as the fighting spreads to 
Damascus and Aleppo and the defections from the Syrian military 
increase--and they are--Assad's grip on power becomes more 
tenuous. The July 18 bombing that eliminated at least four of 
the regime's most dangerous henchmen demonstrated the growing 
reach and sophistication of the armed opposition.
    But on the other side, make no mistake. Assad's military is 
a potent force and it remains a potent force so long as it 
remains a unified and functioning force. And that is evidenced 
by the appalling destruction that his forces are inflicting 
upon Aleppo. Hundreds of thousands of people have fled their 
homes, many of them children. All told, perhaps 20,000 people--
and these are estimates, obviously--have been killed and 
hundreds of thousands more have had their lives forever 
changed. And what is difficult about this is there was a period 
there where the counting seemed to be going on on a relatively 
precise and regular basis. Now the danger is people have 
stopped counting to some degree, and we do not know completely 
what is happening.
    I am told by some people that certain things would be a 
game-changer--use of weapons of mass destruction, for instance, 
or some massive massacre. But that notion that a massive 
massacre might be a game-changer somehow begs the question of 
where to draw the distinction between 100 people a day, 1,000 
people a week, 3,000-4,000 a month. And what does the total 
mean to all of us and to the civilized world? That is certainly 
something that Russia and China and some other countries in the 
region need to ask themselves as we go forward here.
    We all know the regime has threatened to use weapons of 
mass destruction against foreign intervention, though it has 
denied that it would deploy them against its own people. The 
danger is not just Syria's use of these weapons. As the regime 
slowly disintegrates, there is a very real danger that these 
weapons could be misplaced, stolen, or fall into the wrong 
hands.
    We also know that al-Qaeda and other extremist groups are 
seeking to capitalize on the instability. And as we have 
learned from previous experiences in Lebanon and Iraq, 
unwinding cycles of sectarian and terrorist violence can take 
years. A negotiated political transition remains Syria's best 
chance to avoid a further descent into chaos, and I think it is 
clear that time is an important component of this. The longer 
it goes on and the more disorganized and ad hoc that it is, the 
greater the prospect that the very people you least want to see 
involved become more engaged, the greater the prospect that 
radicals have an opportunity to take advantage of the 
situation. The faster it were to change and the more orderly it 
were to change, the less prospect there is for the kind of 
disruption that threatens the region and that empowers the very 
people that you least want to see empowered.
    That is something that ought to weigh heavily, I think, on 
our Russian friends because I believe they have the greatest 
ability to be the game-changers here. And so I think we need to 
keep engaged very, very aggressively in our diplomacy and in 
our efforts to try to persuade everybody to see what is in, in 
fact, everybody's similar interests here.
    But with Assad employing a scorched earth policy, the 
longer his regime stays in power, the deeper Syria's plunge 
into sectarian civil war is likely to be, and clearly the more 
dangerous it is for all of the interests that many, many 
countries share in that region.
    So that is why it is imperative that we work to expedite 
President Assad's exit. Clearly we need to continue to try to 
convince Russia and China that it is in their interests to seek 
a political transition that does not include Assad. I think 
that the votes that have been taken thus far at the U.N. by 
Russia and China are inevitably beginning to come back to haunt 
them in ways that they are increasingly becoming aware of. So I 
think we want to try to approach this thoughtfully, give them 
the room to move, but also try to do so in a timeframe that 
meets everybody's imperatives here.
    I do believe the time has come to shift our emphasis at the 
same time to other multilateral vehicles and not just have all 
our eggs in one basket with respect to Russia. That means the 
Friends of Syria or, if necessary, organizations such as NATO 
or alliances ad hoc as we have done before in other instances 
with the Gulf States or others in the region. What is clear is 
we cannot appear to be feckless or impotent or ineffective in 
the face of this kind of use of force by anybody against their 
own people with the implications that it has for the region 
itself.
    And we cannot allow negotiations in the Security Council to 
block the provision of vital support to the opposition--that 
is, from humanitarian aid to nonlethal supplies. And I say that 
because we all know that others in the region, the Saudis, the 
Qataris, and others are pursuing their own view of interests, 
and there certainly is no lack of lethal supplies at this point 
moving around in that part of the world.
    There are steps that the United States could take to help 
the armed opposition, some of which we want to explore today, 
and we want to explore a number of questions. What more can be 
done to facilitate Arab efforts to increase the capabilities of 
the Free Syrian Army as a cohesive fighting force? Is it 
appropriate to share intelligence selectively and responsibly 
with the opposition, particularly on regime force movements? 
Are there specific instances where we may wish to provide 
lethal assistance? Are calls for the creation of safe zones or 
other forms of direct military intervention, such as a no-fly 
zone--are they either practical or advisable?
    I continue to believe that prudent military planning is an 
imperative, but I also believe we have to be very clear-eyed 
about that. It would be important not to repeat the mistakes of 
the past by thinking we can just willy-nilly commit some forces 
to a conflict without a defined or achievable objective and 
certainly without sober evaluation of the costs and 
implications thereof. That is owed not just to the American 
people but certainly to the men and women of our Armed Forces 
who have been stretched over these years.
    Assad's removal is only the beginning. At last month's 
Friends of Syria conference, 130 countries and entities agreed 
to support a transition plan developed by a broad array of 
Syrian opposition groups. That is not insignificant, my 
friends. One hundred thirty countries have already agreed to a 
transition plan, and increasingly countries in the region are 
becoming more committed to that transition.
    So we need to conduct greater planning with these groups 
and the international community to prepare for that transition. 
Our plans should include power-sharing provisions, ensure that 
all of the key sects are brought into the process, give greater 
definition than we have today to the Free Syrian Army and to 
the opposition. That is something they have to do for 
themselves, but we have to encourage it and help provide the 
capacity for it and the framework for it, much as we did with 
Libya and in other instances. In addition, we learned the hard 
way in Iraq that a winner-take-all transition where key 
minority groups are excluded and the military is unable to 
provide basic security is simply a recipe for prolonged civil 
war.
    So to help us navigate these difficult policy challenges, 
we have, as I said earlier, three very distinguished witnesses.
    Ambassador Marin Indyk is vice president and director of 
foreign policy at the Brookings Institution. He twice served as 
our United States Ambassador to Israel and is a trusted advisor 
and confidante to many of the members of this committee and 
certainly to me as chair, and we value that.
    Likewise, Ambassador Jim Dobbins, director of the 
International Security and Defense Policy Center at the RAND 
Corp., previously served in numerous crisis management and 
diplomatic troubleshooting assignments in Afghanistan, Kosovo, 
Bosnia, Haiti, and Somalia.
    And Andrew Tabler is a senior fellow in the Program on Arab 
Politics at the Washington Institute for Near East Policy, and 
he has spent years living in Syria. We welcome his knowledge 
and expertise here today.
    So thank you all for joining us today and we look forward 
to your testimony and to a good dialogue.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you, Mr. Chairman. And I join 
you in welcoming our distinguished witnesses. We will 
appreciate their testimony as we continue to consider policy 
options toward Syria.
    I would mention in behalf of the committee that we have 
been busy with regard to hearings on Syria, but they have been 
closed and I felt, as did the chairman, it was very important 
that we have an open hearing that we could hear the witnesses 
but so could the public and so could the press and help 
likewise our understanding as we have dialogue with our 
constituents and others about this very, very important topic. 
So we appreciate very much your coming.
    I would just say since our last hearing in the committee in 
April, the regime of Bashar al-Assad has carried out further 
horrific killings, the chairman has mentioned, of innocent 
civilians, reportedly the use of aircraft, helicopter gunships, 
to attack cities, has made chilling threats to use chemical and 
biological weapons to oppose foreign military intervention.
    And we have witnessed Syria's descent into a civil war with 
the cost in lives now exceeding 19,000 lives. Tens of thousands 
of Syrians have fled to Turkey, Lebanon, Jordan, and Iraq, and 
some Syrian diplomats and military officers have defected 
rather than to continue to associate themselves with the Assad 
atrocities. A bombing by rebel forces killed three senior 
military figures within Assad's inner circle last month.
    Yet, we have little reason to be hopeful today for a 
political settlement. For a third time, U.N. Security Council 
efforts to address the crisis have been stymied by Russian and 
Chinese intransigence, and the U.N. observer mission has been 
drawn down. We have seen reports of the growing presence of 
terrorists and jihadist elements in Syria attempting to take 
advantage of the chaos.
    Meanwhile, opposition forces and political groups who are 
coordinating more still remain divided, and this raises 
concerns that divisions within the opposition are a precursor 
to what we might expect in a post-Assad political environment.
    We remain hopeful that this bloody conflict will ultimately 
yield to a political process that addresses legitimate 
aspirations of the Syrian people. But the way forward is far 
from clear as characterized by significant threats, and I 
remain concerned about the creation of new space in Syria for 
terrorist groups and the security of the country's stockpiles 
of unconventional weapons. The risk that sectarian conflict in 
Syria could spread is very real, and events on the ground will 
affect Syria's neighbors, including our close ally Israel.
    Now, although Assad's departure anytime soon is far from 
certain, we should be preparing for what is, or who is, likely 
to emerge after him. The United States must continue to work to 
limit regional consequences stemming from the Syrian conflict. 
We must also focus intelligence and counterproliferation assets 
on containing the Syrian chemical and biological weapons 
threats. We should be ready to respond quickly to opportunities 
to help safeguard these stockpiles in a post-Assad environment.
    More broadly, we should recognize that our ability to 
manufacture a predictable outcome of this crisis is extremely 
limited. Intervention scenarios in Syria come with risks of 
unintended consequences. We should be skeptical about actions 
that could lead the United States to an expensive military 
commitment in Syria.
    I thank the witnesses and look forward to their testimony.
    And thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    I might just mention, as you begin your testimony, 
obviously one of the complications here is I think most people 
feel that the last thing you want is to pursue a policy that 
winds up with a total implosion of the Syrian state because 
that would be the most dangerous thing of all. And so there is 
a real threading of the needle here that is pretty tricky to, 
as I say, get the faster resolution rather than the longer. And 
I hope you will each sort of address how you think that might 
be leveraged more effectively now and sort of what options are 
in the alternative as we go along here.
    So, Ambassador Indyk, would you lead off please and then 
Ambassador Dobbins and Mr. Tabler.
    Thank you.

STATEMENT OF HON. MARTIN INDYK, VICE PRESIDENT AND DIRECTOR OF 
     FOREIGN POLICY, BROOKINGS INSTITUTION, WASHINGTON, DC

    Ambassador Indyk. Thank you very much, Mr. Chairman, 
Senator Lugar, gentlemen. It is a great pleasure to address the 
Senate Foreign Relations Committee again, and thank you for the 
invitation.
    At the outset, I want to simply associate myself with the 
remarks of both the chairman and Senator Lugar and say that 
they provide a very good introduction for what I have to say, 
and therefore I am not going to repeat what you have said, 
simply agree with it, and focus on the two things that in my 
short presentation might be most useful to you, which is, first 
of all, I was asked to define American interests in this 
situation and then to talk about what the United States can do.
    I want to emphasize that the way things are going, as 
Senator Kerry has already suggested, things are likely to get a 
lot worse before they get any better, and the human suffering, 
therefore, is likely only to increase, perhaps dramatically. 
And therefore, what the United States does is not only 
important but it is urgent.
    In terms of our interests, they can be summarized I think 
quite simply, and I think it is fairly noncontroversial in this 
context. Syria is, of course, as you all know, geostrategically 
located in the center of the Arab-Israeli heartland bordering 
Lebanon, Turkey, Iraq, Jordan, and Israel and has served in the 
recent decades as the conduit for Iran's efforts to advance its 
bid for dominance in this sensitive Arab-Israeli heartland. The 
interests from the United States point of view is because Syria 
is in a sense in a pivotal position how to draw it into the 
American-led Arab-Israeli peace camp, and much of the effort 
over the past decades, since the Nixon Presidency, have been 
focused on trying to bring Syria into peace with Israel. And 
that would serve two core interests of the United States, 
strategic interests, which is stability in this vital but 
volatile region and the security of our ally Israel.
    Beyond that, cutting the Syrian conduit that Iran has used 
to promote instability on Israel's borders through its 
Hezbollah and Hamas proxies is also a strategic imperative. 
Preventing the proliferation or use of weapons of mass 
destruction, preventing 
al-Qaeda from taking advantage of the chaos there to establish 
a base of operations in such a sensitive area, promoting 
Lebanon's independence from Syria, and deterring Syrian 
destabilization of Jordan are also important American 
interests.
    Finally, the United States has an interest in advancing the 
human rights of the Syrian people, which is entirely consistent 
with our approach to the Arab Awakenings which is to support 
the pursuit of freedom and dignity for the people of the Arab 
world.
    The point about this is that in other parts of the Arab 
world, as the United States has had to confront what to do as 
the revolutions have spread from Tunisia to Egypt now to Syria, 
is that there was always an inherent tension between our 
strategic interests and our values, our desire to promote 
freedom and dignity for the Arab people. In Syria there is no 
such tension. Our strategic interests and our values coincide 
in a way that I think makes this different and again imperative 
that we act in an effective and urgent way to ensure an orderly 
transition, if that is at all possible, to a post-Assad Syria.
    The question, of course, is how to do that, and I have five 
steps that I think are important. I focused on the diplomatic 
side of things. That is my area of expertise. I know you have 
questions about the military side of things, and I am happy to 
participate in that, but that is not what my presentation is 
focused on.
    Diplomatically, as the chairman has said, the most 
important challenge at the moment is to work on the Russians 
because Russian backing for the regime is important in terms of 
its avoiding the isolation in the international community and 
because we need U.N. Security Council cover for so many of the 
other steps that we need to take. The Chinese are not the 
problem here. They will go along if we can move the Russians, 
but our singular inability to do that up to now is hamstringing 
our efforts to concert an international intervention in support 
of this process of an orderly transition to a post-Assad Syria.
    How to do that, I think, is going to be advantaged in 
precisely the way you suggested in your opening remarks, Mr. 
Chairman, by the fact that the Russians sooner rather than 
later are going to recognize that their position in support of 
the Assad regime is basically untenable, and there are already 
indications that they see that. If they are worried, as I think 
they are, about chaos on their southern borders, the rise of 
Islamic extremists that can have an influence on their own 
Muslim populations, then sticking with Assad is the surest way 
possible of guaranteeing the outcome that they seek to prevent. 
And that surely must be coming more and more obvious to them as 
time goes on. If they are worried, as I think they are, about 
Syria being shifted from the Russian column into the American 
or Western column, then again, the more that they stick with 
Assad, the more that they are guaranteeing the result that they 
seek to avoid.
    So it is time, I think, to address them at the highest 
levels, and I think more can be done by the President with 
President Putin to try to find a way forward that starts with 
agreeing that Assad has to go and focusing on what it is that 
needs to be done to ensure that what comes after him is better 
than the chaos that is now being threatened.
    The second step is, I think, critically important and we 
can play a role there. It is to guarantee those communities 
that now support the regime, because they fear the consequences 
of breaking with it, that there is a secure future for them in 
a post-Assad Syria. This particularly applies to the Alawites 
but also to the Christians and other minority communities. How 
to do that in a credible way is something we can perhaps 
discuss, but it is an urgent priority to make the Alawite 
community in particular feel that there is an alternative to 
the scenario that seems most likely to unfold if we do not find 
a way to stop the descent into chaos which is the creation of 
an Alawite rump state in the mountains around Latakia and 
Tartus that will only guarantee a deepening civil war, 
sectarian conflict with dramatically negative consequences.
    Connected to that, I think, is the need to work actively, 
although below the radar, on Assad's Alawite generals. The 
defections that the chairman referred to are taking place of 
senior officers, but they are not the Alawite generals and we 
have not yet seen any defection of whole units. Indeed, it is 
interesting to note that for all of the publicity given to the 
defections, the fact that the army has essentially stuck 
together in support of the regime is, I think, a reflection of 
the fact that they, like the regime itself, see at the moment 
that there is only a binary choice: to kill or to be killed. 
And we have to start to work on them to try to convince them 
that there is a place for them in a post-Assad Syria. Indeed, 
they can play an important role as the army in securing the 
stability of the state in this post-Assad environment. We have 
learnt from Iraq how dangerous it becomes when the army 
disintegrates, and we have to think about whether there is a 
way that we can take advantage of the incredible strain on the 
army officers to convince them that there is life after Assad 
rather than the alternative of just sticking with him and going 
down with him. Again, I have some other ideas about that which 
we can explore.
    Coordination with the Arabs and Turks and Israelis who have 
the greatest stake in what happens in post-Assad Syria is also 
essential. That is already taking place and I think that as the 
Saudis and the Qataris and the Turks take the lead in terms of 
arming and training the opposition, we have an important 
supportive role to play. But we also have to talk to them about 
something that I think they are less concerned about than we 
are, and I think they should be concerned about it, which is 
that they should not be doing things which have the potential 
to fuel a sectarian Sunni-Shia-Alawi conflict that can spread 
quite easily from Syria to Lebanon, to Iraq, and to Bahrain as 
Iran decides to play payback for the loss of its Syrian ally in 
Bashar al-Assad. And there is a real danger to our interests 
and, I would argue, to their interests in this kind of 
sectarian breakout, and I do not think they are sufficiently 
concerned about it but they should be.
    Finally, the opposition. It is essential that the 
opposition get its act together, and it seems that we have 
limited ability to influence that but we have to try, I think, 
a lot harder, particularly with the insiders who are carrying 
the fight on at the moment, to try to find a way to get them to 
act in unison to put forward a coherent political platform and 
to convey to these minority communities, the Alawites and the 
Christians, the guarantees that I talked about, that they have 
a future in a post-Assad Syria as well. None of these things 
are easy and there is no sure-fire recipe for producing an 
orderly transition, but we have to keep our eye focused on that 
and do whatever we can in an urgent and effective way to try to 
bring it about.
    Thank you.
    [The prepared statement of Ambassador Indyk follows:]

                   Prepared Statement of Martin Indyk

    Mr. Chairman, thank you for the opportunity to address your 
esteemed committee on a matter of critical urgency and importance to 
U.S. interests in the Middle East. The situation in Syria today is a 
source of immense human suffering with a death toll of over 100 Syrian 
citizens a day, and a cumulative death toll that exceeds 20,000 people. 
Now a major refugee crisis is brewing: hundreds of thousands are 
fleeing fighting in Syria's main cities of Damascus and Aleppo and are 
crossing Syria's borders with Jordan, Turkey, and Lebanon. Images of 
Syrian artillery and warplanes attacking the suburbs of ancient Aleppo, 
reports of sectarian massacres, open discussion of circumstances in 
which Syria's arsenal of chemical weapons might be used, and 
indications of jihadist elements joining the battle, all point to a 
heightening conflict in which the death toll is bound to rise, perhaps 
dramatically. If Syria is indeed ``spinning out of control,'' as 
Defense Secretary Panetta recently declared, then what he has witnessed 
in the past 16 months of revolt might just be the harbinger of a far 
greater human disaster to come.
    This is especially alarming because Syria is not like any of the 
other Arab countries that have undergone revolution since January 2011. 
The regime represents an Alawite minority community that numbers some 
1.5 million people and enjoys the support of a Christian community of 
an additional 2.2 million people. That represents roughly 20 percent of 
the population. The Alawites fear that if the regime falls, they will 
be slaughtered--that there is no place for them in a post-Assad, Sunni-
dominated Syria. Sixteen months of killing has not yet generated any 
major defections from these minority communities--only Sunni officers, 
diplomats, and business elites are now breaking with the regime. With 
their backs to the wall, the Alawite regime considers its choice as 
binary--either kill or be killed. And it has a well-armed fighting 
force of perhaps 300,000, a paramilitary force--the feared ``shabiha'' 
(ghosts)--of several more thousand, and the backing of Iran and 
Hezbollah to carry on a fight to the death.
    Although the regime and its core supporters have the will and means 
to fight on, it is nevertheless impossible to imagine that they will 
prevail against a Sunni majority that has every right to be enraged by 
Assad's killing spree and that is gaining strength as it garners 
fighting experience and outside military support from the Sunni states 
of Turkey, Qatar, and Saudi Arabia. Already the regime has ceded 
control over much of the country and its borders; the Syrian Kurds are 
busy establishing an autonomous zone in the east; the economy is in 
free fall; and its international isolation is growing.
    Since the dynamics of this situation suggest that things will get a 
lot worse before they get any better, and the human suffering will only 
increase, perhaps dramatically, what is the United States to do?
    It is worthwhile in these circumstances to begin with a definition 
of United States core interests in Syria, which is geo-strategically 
located in the center of the Arab-Israeli heartland--bordering Lebanon, 
Turkey, Iraq, Jordan, and Israel--and which has served as the conduit 
for Iran's efforts to advance it's bid for dominance in this sensitive 
region. Henry Kissinger famously remarked that there could be no Arab-
Israeli war without Egypt and no Arab-Israeli peace without Syria. For 
that reason, successive United States administrations have sought to 
bring Syria into the peace camp with Israel in order to shore up two 
core, strategic interests: stability in a volatile but vital region; 
and security for Israel. In that context, cutting the Syrian conduit 
that Iran uses to promote instability on Israel's borders through its 
Hezbollah and Hamas proxies is also a strategic imperative. Similarly, 
preventing Syria from proliferating or using weapons of mass 
destruction serves our strategic interests. The promotion of Lebanese 
independence from Syria and the deterrence of Syrian destabilization of 
Jordan are also important American interests though of less strategic 
weight. Finally, the United States has an interest in advancing the 
human rights of the Syrian people, consistent with its pursuit of 
freedom and dignity for the people of the Arab world.
    In other Arab states where the people have revolted against their 
authoritarian rulers, the United States has had to balance promotion of 
its values against the pursuit of its interests. In Libya, for example, 
the United States had a quite limited strategic interest but chose to 
support military intervention because of the desire to prevent the 
almost certain massacre of the citizens of Benghazi. In Bahrain, by 
contrast, the United States chose to put its strategic interest in 
stability in neighboring Saudi Arabia ahead of its support for the 
rights of Bahrain's citizens, one-third of whom were in the streets 
demanding fundamental reforms.
    In Syria, however, there is no such tension between American 
strategic interests and American concern for the human rights of the 
Syrian people. Both would be well-served by the prompt removal of the 
Assad regime, especially because its continuation in power will not 
only cause immense suffering to the Syrian people, but also because the 
longer it stays the higher the likelihood of a descent into chaos that 
could cause severe damage to our other interests in Syria and the wider 
region (the stability of Syria's neighbors, avoidance of conflict with 
Israel, prevention of the use or proliferation of Syria's chemical 
weapons, avoidance of the spread of a sectarian Sunni/Shia conflict, 
etc.).
    Thus, how soon the regime falls, and how it passes from power have 
become vitally important questions for U.S. policy. But the Obama 
administration finds itself hamstrung in this situation. It has good 
reason to be reluctant to intervene militarily: the American people are 
weary after 10 years of war in the greater Middle East; the 
international community is, at least for the time being, divided; the 
Syrian army still wields considerable capabilities--including chemical 
weapons--that could drive up the cost of intervention; and the 
opposition is divided and unable so far to present a coherent 
alternative that the United States could actively help take power. All 
of these factors can and probably will change over time: the American 
people will become increasingly angry with the wholesale slaughter of 
innocents; Russia and China will find it increasingly untenable to 
block U.N. Security Council action; the Syrian army will likely crack 
under the strain of prolonged conflict with its own citizens; and the 
opposition is already beginning to coalesce around a more coherent 
platform for transitioning to a post-Assad Syria.
    However, the longer it takes for these developments to unfold, the 
harder it will be to effect an orderly transition to a post-Assad 
Syria. The Alawites could repair to a ``rump state'' in the mountains 
around Tartus and Latakia, resulting in a prolonged sectarian civil war 
that could generate ethnic cleansing, large numbers of displaced 
persons and refugees, and a possible overflow to Lebanon (where Shia 
Hezbollah dominates over restive Sunni and Christian communities), Iraq 
(where a Shia government in Baghdad is now confronting an al-Qaeda 
resurgence), and potentially Bahrain (where a Sunni king rules over a 
Shia majority in revolt and where Iran might well play ``payback'' for 
the loss of its Syrian ally).
    Time is therefore of the essence, and action needs to be taken 
nothwithstanding the many constraints. I believe a combination of the 
following steps is now necessary:

    1. Work With the Russians on a Political Process: Because Russian 
backing for the regime is increasingly untenable, and because we need 
U.N. Security Council cover for so many of the other steps, it is 
essential to persuade the Russians that their interests can be better 
protected by working with us rather than against us. Secretary of State 
Clinton has been working this issue hard but as the Russians begin to 
see the light, it will be important for the President to engage Putin 
on a more regular and intense basis to help remove his distrust of our 
motives and convince him that we have a common interest in preventing 
the rise of Islamic extremism near his borders by working on an orderly 
transition together. That orderly transition begins with Assad standing 
aside in order for a United States and Russian-sponsored political 
dialogue to be launched. At the moment the Russians insist that the 
dialogue be with Assad, which is a nonstarter for the opposition. We 
have to find a way to convince them that helping to remove Assad is the 
only way to produce the dialogue that they want.
    2. Guarantee the Christians and Alawites: As long as these 
communities fear for their very survival they will stick with the 
regime. They need to receive credible guarantees that their lives and 
interests will be preserved in a post-Assad, Sunni-dominated Syria. 
These guarantees will likely need to be backed by a U.N.-sponsored 
protective force since they will have no faith in commitments extended 
by the opposition. Planning should get underway now for such a blue 
helmet force that will need to be ready to intervene either when Assad 
steps aside or when he is overthrown. But there can be no such force 
without Russian cooperation (hence step #1).
    3. Work on the Alawite Generals: If credible guarantees can be 
provided to their community, these generals may be more willing to 
consider splitting with Assad and his henchmen. Their units are already 
under considerable strain; their inner sanctum has already been 
penetrated; some of them must see the writing on the wall. If an 
orderly transition is to be sustained, the army will need to play a 
stabilizing role which requires generals with their intact units 
defecting to the opposition. The Russians can play a useful role here 
if they are in harness with us; other means can be used to contact 
them. At a certain point it might also makes sense for Israeli and 
Turkish units to conduct large-scale exercises on their respective 
borders with Syria (they each have recently reinforced their troops 
there). IDF positions on the Golan Heights are 40 kilometers from 
Damascus; Turkey has a lengthy border with Syria. Military exercises on 
their own sides of the border could concentrate the minds of the Syrian 
generals on the potential for a three-front war if they don't move 
against Assad and his inner circle.
    4. Coordinate With the Arabs, Turks, and Israelis: Saudi Arabia and 
Qatar have taken the lead in concerting Arab League opposition to the 
Assad regime and in arming the opposition. We need to work closely with 
them to ensure that their arms are going to the elements in the 
opposition that have an interest in an orderly post-Assad future for 
all Syria's citizens. In particular, the Saudis and Qataris need to be 
cautioned against lighting a sectarian fire that could easily spread to 
Bahrain and cause immense instability in the gulf.
    Turkey has a key role to play in promoting an orderly transition. 
Prime Minister Erdogan and Foreign Minister Davutoglu have spoken about 
the creation of humanitarian corridors across the Turkish border in 
Syria. With the potential for a large-scale refugee inflow, the Turks 
may soon be ready to move. However, that will require a U.N. cover and 
NATO support. We should be planning for both those contingencies now.
    We should be consulting closely with the Israelis, given their 
knowledge of the Syrian army and their intense interest in ensuring 
that Syria's chemical weapons are not transferred to Hezbollah or fall 
into the hands of jihadist elements. There may be low profile ways in 
which they can help the opposition too.
    5. Concert the Opposition: One of the most problematic challenges 
to the achievement of an orderly transition--beyond persuading Assad to 
step down--is to get the opposition to generate a coherent and credible 
leadership that commands the loyalty of a majority of the many factions 
that have now assumed a role in the Syrian revolution. Progress on this 
effort has been frustratingly slow. Hopefully the greater focus now on 
the internal opposition will yield a more detailed and accurate mapping 
of all these groups that will then make an effort to unify them more 
possible.

    None of these steps are easy and there is no sure fire recipe for 
producing an orderly transition to a post-Assad Syria. Nevertheless, 
there is so much at stake for our strategic interests and so much to 
gain from preventing a descent into chaos that we must do our best by 
acting quickly and resolutely.

    The Chairman. Thank you, Ambassador. Appreciate it.
    Ambassador Dobbins.

   STATEMENT OF HON. JAMES DOBBINS, DIRECTOR, INTERNATIONAL 
     SECURITY AND DEFENSE POLICY CENTER, RAND CORPORATION, 
                         WASHINGTON, DC

    Ambassador Dobbins. Thank you, Senator Kerry, Senator 
Lugar. It is always a great privilege and a pleasure to appear 
before this committee and I thank you for having me back again.
    As you said, Mr. Chairman, in your opening remarks, I think 
I have been invited not as an expert on Syria, which I am not, 
but as somebody who has had experience in previous crisis 
management situations, military interventions, stabilization 
operations 
to perhaps comment on what those lessons might mean for the 
choices we face with respect to Syria.
    I would like to start by examining the case for a greater 
external intervention in Syria and then look at the 
requirements for post-war stabilization and reconstruction in 
that country.
    In considering any possible military intervention in or 
over Syria, there seem to be at least three questions which 
would need to be addressed. First, whether we should, in fact, 
support and perhaps participate in such an operation. Second, 
what form such an operation might look like, and thirdly, what 
sort of international role the United States and others might 
play in a post-conflict reconstruction phase.
    In determining whether or not an external military 
intervention would occur, it seems to me that three conditions 
would need to be fulfilled. First of all, there would have to 
be an adequate justification. Second, there would have to be 
some prospect for success. And third, the interests of major 
powers with the capacity to influence events would have to be 
sufficiently engaged to make them accept the risks and the 
costs.
    I think the first of those criteria can be pretty easily 
dealt with. I think in both of your own remarks you have 
already laid out the case that justifies international 
intervention should states choose to move in that direction. It 
is clear that President Assad is not exercising his 
responsibility to protect his population, and it seems to me 
clear that the international community has just cause to step 
in to do so if it chooses.
    The next question would be whether there is some prospect 
for success in such an operation. Peace enforcement operations 
in Syria would be quite demanding. Syria has a reasonably well 
equipped and so far largely loyal army, relatively modern air 
defenses, a large arsenal of chemical weapons. It has at least 
one ally, Iran, and some support from Russia.
    On the other hand, the Assad regime's core domestic support 
comes from a minority of the population. The rebels are 
increasingly numerous and effective, if not yet politically 
unified. The rebellion draws its support from the most numerous 
segment of the population. The rebels enjoy an effective 
sanctuary in neighboring Turkey, and whereas the regime is 
largely isolated internationally, the insurgents are already 
drawing moral and material support from a very wide range of 
countries, including the United States.
    Most observers have concluded, including if one reads in 
the press, most U.S. Government analysts have concluded that 
the Syrian regime's days are numbered, that it is only a 
question of time before Assad and his regime will fall, the 
major issues being how much damage it will do before that 
occurs and how much chaos will ensue thereafter.
    This is in contrast to Libya. In Libya, the United States 
and its partners intervened in support of what was at the time 
the losing side in that civil war and helped it reverse the 
tide. In Syria, by contrast, the issue would seem to be whether 
to intervene on what appears to be the winning side in order to 
help it terminate the conflict more quickly.
    But even if direct military engagement could accelerate an 
acceptable conclusion, it would not be cost- or risk-free, and 
therefore, it raises the question of whether we or others have 
adequate strategic interests to accept the risks and the costs. 
I think largely because of Syria's alignment with Iran, the 
conservative Sunni regimes of the region have a strong interest 
in Assad's fall.
    Similarly, the newly democratizing Arab nations have a 
similar interest, one that both secular and Islamist parties 
can share since both democrats and Islamists can both expect to 
increase their influence in a post-Assad Syria.
    The United States and its European allies also have a 
strong interest in Assad's fall, again largely due to that 
regime's alignment with Iran. Syria provides the main bridge 
through which Iran is able to support Hezbollah and Hamas, 
influence Lebanon, out-flank its Sunni Gulf adversaries, and 
threaten Israel. Absent that bridge, it will be much more 
difficult for Iran to support any extremist groups in the 
Levant, and without an ability to do that, Iran would retain 
little practical means of damaging Israel. The case for 
international and specifically American support for the Syrian 
uprising, thus, seems to warrant serious consideration.
    The next question would be what an intervention might look 
like. The United States is already providing nonlethal 
equipment and advice. So the question would be to move beyond 
that to provide some levels of lethal equipment or, even beyond 
that, to join in some sort of international intervention 
perhaps in the form of an imposed no-fly zone. This would 
certainly be more difficult than the air campaigns that the 
United States led over Bosnia, Kosovo, Afghanistan, Iraq, or 
Libya, in none of which the United States lost a single pilot. 
But the task does not seem beyond the capacity of the United 
States and its partners.
    There is, of course, the danger that any external military 
involvement in Syria, if it lacked broad international support 
and broad international participation, would only encourage 
others to interfere on behalf of the regime, thereby extending 
and even widening the conflict. In order to avoid such an 
outcome, I believe, therefore, that several conditions would 
need to be fulfilled before the United States would want to go 
down this path.
    First, the Syrian opposition would need to ask for such 
help. It has not done so and it may never do so. But they could 
be quietly encouraged to consider the possibility seriously.
    Second, most Arab League governments would need to endorse 
such a call as they did with respect to Libya. Turkey, and 
Saudi Arabia in particular would need to take the lead, much as 
Britain and France did with respect to Libya, in canvassing for 
broader international support for such an operation and in 
participating in any military coalition. Most NATO allies, 
particularly the more powerful, would also need to participate 
in such an effort.
    A U.N. Security Council resolution would certainly be 
desirable, but as was the case in Kosovo, not absolutely 
necessary in order to secure broad international support and 
approbation.
    For these reasons, I do not think the United States should 
get out in front of the Syrian opposition or the Arab League or 
the major regional powers in championing such an action, but I 
do believe that the still-escalating violence in Syria will 
generate more serious consideration of these steps in the 
coming weeks and that the United States should not be resisting 
such a flow but instead trying to encourage quietly the meeting 
of these conditions. In the meantime, the administration should 
consider how to step up other forms of support for the 
resistance.
    This brings me to my third question, which is what about 
post-war stabilization. I suspect the major question in 
American minds is whether we are in danger of being sucked into 
another manpower-intensive stabilization operation that then 
turns into a long counterinsurgency campaign. I think this is 
unlikely for the following reasons.
    First, as a general rule, civil wars that end in negotiated 
settlements often require some third-party oversight to 
implement whatever agreement has been reached because the two 
parties remain armed, they remained mutually suspicious and 
they are unlikely to fulfill the conditions of any peace 
settlement because they fear that the other side will fail to 
do so, and therefore, some third party is usually necessary to 
oversee implementation.
    By contrast, civil wars that end in a clear-cut military 
victory by one side and a clear-cut defeat by the other 
generally are less dependent on external intervention to 
provide security and oversee the implementation or the 
emergence of a sustained peace.
    It seems to me that serious civil war is unlikely to end in 
a negotiated agreement between Assad and the opposition. 
Provided the rebels get sufficient external support, the war 
also seems unlikely to result in an indefinite stalemate. A 
more likely result--not a certain one, but a more likely 
result--will be something more akin to Libya in that the rebels 
will eventually win decisively and the former regime will 
collapse and be unable to reconstitute a threat.
    On the other hand, Syria more resembles Iraq than it does 
Libya in the sense that it is divided religiously and 
ethnically, not just tribally. And the likelihood, as Martin 
has already indicated, of sectarian violence in the aftermath 
of the fall of the regime is quite likely. The United States, 
we will recall, intervened in Kosovo to protect the Albanian 
Muslims from the orthodox Serbs, and then spent the next 10 
years protecting that Serb minority from the Muslim majority. 
We had the same experience in Iraq where we intervened. We 
liberated the Shia majority and then spent much of the next 
several years trying to protect the Sunni minority from the 
retribution.
    It is not impossible that we will see this kind of descent 
into sectarian war in Libya, and al-Qaeda has already 
positioned itself to engage in this kind of sectarian violence.
    In my written testimony, I provided some details, courtesy 
of my colleague, Seth Jones, on al-Qaeda's penetration into 
Syria which should be a real source of alarm. We face the 
prospect of an expanding al-Qaeda presence and that of other 
extremist groups, and a presence allied effectively with a 
rising Sunni-dominated resistance movement, a presence, that 
once consolidated, can eventually pose a risk to all of Syria's 
neighbors, including Israel, and to the United States.
    In order to avoid an Iraq-like sectarian violence in Syria, 
it will be important to work during the civil war, not just 
after it, to unify the opposition, marginalize al-Qaeda and 
other extremist groups, encourage defections from the regime, 
particularly from its Alawite core, and encourage inclusion of 
representatives of that community within the opposition 
leadership. Martin has already spoken about all of those 
things. I certainly agree, but I also tend to think that our 
influence will be greater during the war than afterward and 
greater if we are engaged on the side of the opposition than if 
we are standing on the sidelines providing unsolicited advice.
    I am sure the Obama administration is already advising the 
Syrian opposition along these lines, but our ability to advance 
these goals will tend to be in direct proportion to the help 
the United States provides the opposition in their fight to 
overthrow the regime. Promises of post-war aid will mean less 
in forging a relationship with the eventual rulers of Syria 
than decisive action now. The new Syrian leadership will be 
formed in the crucible of war and in all likelihood will prove 
resistant to the admixture of elements that did not participate 
in the fight or to influence from governments that did not 
support them in it. It would, for instance, be a great mistake 
to allow the emerging leadership of Syria to conclude that al-
Qaeda had done more to help them prevail than did the United 
States.
    I am pleased to learn that the State Department, through 
the U.S. Institute for Peace, has been working with Syrian 
emigres and more recent refugees on post-war planning and 
reconstruction. This is very important. But what is more 
important now for the U.S. Government than drafting plans is 
forging relationships with those likely to next govern Syria. 
These relationships should be developed at many levels--
diplomatic, covert, military, economic, and political--to 
include democracy building work by our Republican and 
Democratic institutes, and contacts with individual Members of 
Congress, as well as with all the relevant arms of the 
executive branch.
    As I said, my expectation is that Syria's civil war will 
probably result in the regime's collapse, not a negotiated 
settlement, that the victors will not want foreign troops on 
the ground, and that there will, therefore, be no serious 
consideration of a large-scale manned stabilization force.
    Having myself been involved in international military 
operations, as you mentioned, Mr. Chairman, in Somalia, Haiti, 
Bosnia, Kosovo, and Afghanistan, not all of which were famously 
successful, I would be the last to minimize the complexities, 
dangers, and costs associated with any such effort in Syria. It 
is for this reason that I do not believe the United States 
should become the standard bearer for such an intervention. I 
do believe, however, that the United States should up its 
assistance to the rebels, quietly let those on the front lines, 
particularly Turkey and Saudi Arabia, know that it will back 
initiatives they may wish to take toward more direct military 
engagement, and provided the earlier-mentioned conditions are 
met, America should provide those military assets needed for 
success that only the United States possesses in adequate 
numbers.
    Thank you again for having me.
    [The prepared statement of Ambassador Dobbins follows:]

                  Prepared Statement of James Dobbins

    Chairman Kerry, Ranking Member Lugar, and members of the committee, 
thank you for the opportunity to appear before you this morning. I come 
to this discussion about policy toward Syria not as a country or even 
regional expert, but as someone with experience of other civil wars, 
international military interventions, stability operations and post 
conflict reconstruction efforts.
    In debates over earlier missions, I observed that those most 
familiar with the conflicted societies in question often tend to be the 
most pessimistic about the prospects for pacifying and reforming them. 
By contrast, those who come from a background in stabilization and 
reconstruction tend to believe that peace can be restored and some 
measure of political and economic reform achieved, but only with a 
significant commitment of time and effort.
    A third category of individual, those with little knowledge of the 
society in question or the process of stabilization and reconstruction, 
sometimes believe that the desired results can be achieved quickly, 
easily, and cheaply. This group was much more in evidence before our 
invasion of Iraq than it is today. Indeed, the pendulum may have swung 
too far in the opposite direction, encouraging an equally erroneous 
belief that military interventions can never produce positive results 
at acceptable costs.
    In considering any possible military intervention in or over Syria, 
there are several questions to be addressed. First, should the United 
States support and perhaps even participate in such an operation? If 
the answer is yes, then second, what form should such an operation take 
and what role should the United States play? Third, what should be the 
international and American role in the post conflict reconstruction 
phase?
    Three criteria will dominate any decision to intervene militarily: 
the humanitarian, the practical, and the strategic. Has the violence 
reached a level that both justifies and provides broad international 
support for intervention? Is there a reasonable prospect that such an 
intervention could succeed in ending the fighting on acceptable terms? 
Are the strategic interests of states--in particular those powerful 
enough to effectively intervene--sufficiently engaged to lead them to 
do so? Unless the answer to all these questions is yes, external 
military intervention to stop the fighting is unlikely.
    The first of these criteria can be readily established as regards 
Syria. A repressive regime with a history of extreme abuse is making 
war on its own people, shelling and bombing its major cities. This 
behavior has been widely, indeed almost universally condemned, but in 
reaction to repeated demands to halt attacks on its civilian 
population, the regime has only escalated the level of violence. 
Clearly the Syrian Government is not fulfilling its responsibility to 
protect its population, and the international community now has just 
cause to step in to do so.
    But sufficient justification does not automatically translate into 
practical feasibility or sufficient motivation. Peace enforcement 
operations in Syria would be quite demanding. Syria has a reasonably 
well equipped and so far largely loyal army, relatively modern air 
defenses and a large arsenal of chemical weapons. It has at least one 
ally, Iran, and some support from Russia. On the other hand, the Assad 
regime's core domestic support comes from a minority of the population; 
the rebels are increasingly numerous and effective, if still not yet 
politically unified; the rebellion draws its support from the most 
numerous segment of the population, that is to say the Sunni community; 
the rebels enjoy an effective sanctuary in neighboring Turkey; and 
whereas the regime is largely isolated internationally, the insurgents 
are already drawing moral and material support from a wide range of 
countries including the United States.
    Most observers, including it seems U.S. Government analysts, 
believe the Syrian regime's days to be numbered, the open issues being 
how much damage it will do before falling and how much chaos will ensue 
thereafter. In Libya, the United States and its partners intervened in 
support of what was--at the time--the losing side and helped it reverse 
the tide. In Syria by contrast, the issue would seem to be whether to 
intervene on what appears to be the winning side in order to help it 
more quickly terminate the conflict.
    Even if direct international military engagement could accelerate 
an acceptable conclusion to the conflict, it would not be cost or risk 
free. This is where the strategic interest of external parties comes 
into play. Largely because of Syria's alignment with Iran, the 
conservative Sunni regimes of the region have a strong interest in 
Assad's fall. The newly democratizing Arab nations have a similar 
interest, one that both secular and Islamist parties can share, since 
both democrats and Islamists can expect to increase their influence in 
a post-Assad Syria.
    The United States and its European allies also have a strong 
interest in Assad's fall, again largely due to that regime's alignment 
with Iran. Syria provides the main bridge by which Iran is able to 
support Hezbollah and Hamas, influence Lebanon, outflank its Sunni Gulf 
adversaries and threaten Israel. Absent that bridge, it will be much 
more difficult for Iran to support for extremist groups in the Levant 
without which Iran would retain little practical means of damaging 
Israel.
    The case for international and specifically American support for 
the Syrian uprising thus seems worth serious consideration, both as 
regards justification, feasibility and strategic interest. The next 
question is what such an intervention might look like and how it might 
be structured.
    The rebels are already getting arms, equipment, training and 
sanctuary from abroad, although so far the American role has reportedly 
been limited to nonlethal equipment and advice. A further step might be 
overt international military involvement, which could take the form of 
some aerial engagement, perhaps to impose a ``no-fly'' zone over some 
or all of Syria. The enforcement of such a zone would almost certainly 
require substantial American participation, particularly in the early 
stages when Syrian air defenses would need to be taken out. Doing so 
would present a tougher challenge than faced during the air campaigns 
over Bosnia, Kosovo, Afghanistan or Iraq, in none of which the United 
States lost a single pilot, but the task is hardly beyond the capacity 
of the United States and its partners, so long as regional states 
provide basing and overflight rights.
    There is the danger that external military involvement in the 
Syrian civil war will only encourage others to increase their backing 
of the regime, thereby extending and even widening the conflict. In 
order to avoid such an outcome, there are several preconditions that, 
in my judgment, would need to be met before the United States would 
want to consider backing and participating in any such effort. First, 
the Syrian opposition would need to ask for such help. So far they have 
not and they may never do so. But they might be quietly encouraged to 
consider the possibility seriously. Second, most Arab League 
governments would need to endorse such a call, as they did with respect 
to Libya. Turkey and Saudi Arabia, in particular, would need to take 
the lead, much as Britain and France did with respect to Libya, on 
canvassing for broader international support and participating in the 
military coalition. Most NATO allies would need to support and several 
of the most important would need to participate in such an effort. A 
U.N. Security Council mandate for military action, such as was had in 
Bosnia, Afghanistan, and Libya, would also be highly desirable, but, as 
was demonstrated in Kosovo, not absolutely necessary to secure broad 
international approbation.
    Russia and China can be expected to oppose any such intervention, 
even if it had clear Syrian rebel and overwhelming regional support. 
Russia might even increase its material assistance to the Syrian 
regime, although it seems unlikely that Moscow would risk Russian 
forces in confrontation with a very broad international coalition. 
Indeed, faced with the prospect of such a coalition and the thereby 
increased likelihood of a rebel victory, Moscow might even decide to 
step out of the way rather than be humiliated and lose any remaining 
influence it might have in post-war Syria.
    I do not think that the United States should get out in front of 
the Syrian opposition, the Arab League, the major regional powers and 
its European allies in publicly championing such action. But I do 
believe that the still escalating violence in Syria will generate more 
serious consideration of an external intervention in each of those 
quarters. I believe the United States should not resist such a flow but 
instead begin quietly trying to channel it, as the Obama administration 
ultimately did with respect to Libya. In the meantime, the 
administration should be considering how to step up other forms of 
support for the resistance.
    This brings me to my third question: what about post-war 
stabilization and reconstruction? Here, I suspect that the major 
question in American minds is whether we are in danger of being sucked 
into another manpower intensive stabilization operation that then turns 
into a counterinsurgency campaign. I think not, for the following 
reasons.
    First, as a general rule, civil wars that end in negotiated 
settlements are normally more in need third-party oversight if peace is 
to stick. Both parties remain armed and mutually suspicious and neither 
will implement those elements of the peace accord that might weaken its 
capacity for self-defense. Only a substantial third force can provide 
sufficient confidence to both parties to the agreement to carry out its 
provisions. By contrast, those civil wars that end in clear-cut 
victories rather than negotiated settlements or drawn out stalemates 
tend to be less prone to resumption, and the societies in question tend 
to be less dependent on external forces for their security in the 
immediate post-war environment.
    Syria's civil war seems unlikely to end in a negotiated agreement 
between Assad and the opposition. Provided the rebels get sufficient 
external support, the war also seems unlikely to result in an 
indefinite stalemate. A more likely result will be something more akin 
to Libya, in that the rebels will eventually win decisively, and the 
former regime will collapse and be unable to constitute a threat to its 
successor.
    On the other hand, Syria more resembles Iraq (and former 
Yugoslavia) than Libya, in that it is divided religiously and 
ethnically and not just tribally. As the persecuted Shia majority in 
Iraq, once liberated, turned on its Sunni oppressors, and as the 
persecuted Muslim majority in Kosovo, once liberated, turned on its 
Serbian Orthodox oppressors, so in Syria, revengeful Sunni extremists 
seem quite likely to turn on the Alawite minority.
    Al-Qaeda is already positioning itself to engage in such sectarian 
violence. As my RAND colleague, Seth Jones, has pointed out, al-Qaeda 
makes up a small part of the resistance movement, but its strength 
appears to be rising. Since last December, al-Qaeda has conducted 
roughly two dozen attacks, primarily against Syrian security service 
targets. Virtually all have been suicide attacks and car bombings, and 
have resulted in more than 200 deaths and 1,000 injuries. According to 
estimates from one intelligence service in the region, al-Qaeda has at 
least doubled its ranks to some 200 operatives composed of Iraq jihad 
veterans, small numbers of foreign fighters, and local extremist 
recruits.
    What explains al-Qaeda's rise? One factor is the draw of a new 
jihad--smack in the middle of the Arab world. While roughly three 
quarters of Syria's Muslims are Sunni, the government is ruled by a 
minority Alawite sect that is an offshoot of the Shia version of Islam, 
albeit one most Shia also regard as heretical. For Sunni extremist 
groups like al-Qaeda, a Shia government in Sunni territory is 
unacceptable.
    Since 2003, Syria has been the primary transit hub for foreign 
fighters headed to Iraq. Now the tables have turned on Syria. Al-Qaeda 
in Iraq has apparently sent small arms and light weapons--including 
rifles, light machine guns, and rocket propelled grenades--to its 
Syrian contingent. Al-Qaeda in Iraq has also sent explosive experts to 
augment its Syrian contingent's bombmaking capabilities and deployed 
fighters to boost its ranks.
    Jones reports that with this assistance Al-Qaeda leaders in Syria 
have begun to establish an organized political and military structure. 
They have appointed a management council, set up a headquarters, and 
created regional networks with military and religious leaders to run 
operations, manage cross-border facilitation, and procure weapons and 
other supplies.
    We are thus faced with the prospect of an expanding Al-Qaeda 
presence in Syria, one allied effectively with a rising Sunni dominated 
resistance movement, a presence that once consolidated can eventually 
pose a threat to all of Syria's neighbors, including Israel, and to the 
United States.
    In order to avoid Iraq-like sectarian violence in Syria, it will be 
important to work during the civil war to unify the opposition, 
marginalize Al-Qaeda and other extremist elements, encourage defections 
from the regime--particularly from its Alawite core, and encourage 
inclusion of representatives of that community within the opposition 
leadership. I expect that the Obama administration is already advising 
the Syrian opposition along these lines. But American influence and 
ability to advance such goals will tend to be in direct proportion to 
the help the United States provides the opposition in their fight to 
overthrow the regime. Promises of postwar aid will mean much less in 
forging a relationship with the eventual rulers of Syria than decisive 
assistance now. The new Syrian leadership will be formed in the 
crucible of war, and in all likelihood will prove resistant to the 
admixture of elements that did not participate in the fight, or to 
influence from governments that did not support them in it. It would, 
for instance, be a great mistake to allow that leadership to conclude 
that Al-Qaeda had done more to help them prevail than had the United 
States.
    I was pleased to learn that the State Department, through the U.S. 
Institute of Peace, is assisting Syrian emigres and more recent 
refugees to plan for the post-war reconstruction. This is certainly a 
useful exercise. Yet planning divorced from resources and power, as 
these efforts necessarily are, will likely have only limited impact on 
actual events. What is more important for the U.S. Government to do at 
this stage than drafting plans is forging relationships with those 
likely to next govern Syria. These relationships should be developed at 
many levels, diplomatic, covert, military, economic and political, to 
include democracy-building work by our Republican and Democratic 
Institutes, contacts with individual Members of Congress, as well as 
with all the relevant arms of our executive branch.
    As we get to know the Syrian opposition better, we will discover, I 
have no doubt, that not all are democrats, that many are ill disposed 
toward the United States, and that most if not all are ill disposed 
toward Israel. We will also discover, I expect, that most are even more 
ill disposed toward Iran, and therefore not inclined to help Tehran 
extend its influence into the Levant.
    My expectation is that Syria's civil war will result in the 
regime's collapse, not a negotiated settlement, that the victors will 
not want foreign troops on the ground, and that there will therefore be 
no serious consideration of a large-scale foreign manned stabilization 
force. One can envisage circumstances where very limited external 
military assistance might be needed, for instance to secure chemical 
weapons sites, but a far better outcome will be for the regime's armed 
forces to remain largely intact, albeit under new command, and thus 
still responsible for the security (and eventual disposal) of these 
weapons. Contrary to Iraq, where the American military dropped leaflets 
informing Iraqi troops that they would be killed if they remained in 
uniform and under arms, the Syrian opposition should be encouraged to 
assure rank and file Syrian soldiers that they will be safe, and indeed 
paid and protected as soon as they cease fighting. It appears that the 
Obama administration is so advising the Syrian opposition.
    Having myself helped organize international military operations in 
Somalia, Haiti, Bosnia, Kosovo, and Afghanistan, I would be the last to 
minimize the complexities, dangers, and costs associated with any such 
effort in Syria. It is for this reason that I do not believe the United 
States should become the standard bearer for such an intervention. I do 
believe, however, that the United States should up its assistance to 
the rebels; quietly let those on the front lines, particularly Turkey 
and Saudi Arabia, know that it will back initiatives they may wish to 
take toward more direct military engagement; and provided the earlier 
mentioned conditions can be met, America should provide those military 
assets needed for success that only the United States possesses in 
adequate number.
    Again, thank you for the opportunity to appear before you today. I 
look forward to taking your questions.

    The Chairman. Thank you very much.
    Mr. Tabler.

  STATEMENT OF ANDREW TABLER, SENIOR FELLOW, PROGRAM ON ARAB 
     POLITICS, WASHINGTON INSTITUTE FOR NEAR EAST POLICY, 
                         WASHINGTON, DC

    Mr. Tabler. Good morning, Mr. Chairman, Ranking Member 
Lugar. Thank you for the opportunity to testify before the 
Senate Committee on Foreign Relations today.
    I have met with many of you personally and your staff since 
I left Syria nearly 4 years ago, and over my years of working 
in Syria and Lebanon, I followed closely the committee's 
hearings on Syria and United States attempts to deal 
effectively with Bashar al-Assad's regime. I think I speak for 
all my Syrian friends and their families in thanking the 
committee for convening this hearing at a key time not only in 
the Syrian people's attempt to throw off 40 years of tyrannical 
rule, but in taking the big next step with them of building a 
better, more democratic Syria.
    However, if Washington's limited policy of diplomatic 
isolation, sanctions, and piecemeal support for the opposition 
continues as is, I feel the next government in Syria, whatever 
part of Syria that is, will more likely than not be suspicious 
and hostile to United States interests. The reason is simple: 
Washington invested too much time in diplomacy at the United 
Nations instead of directly helping the Syrian people hasten 
Bashar al-Assad's demise, which is apparently our policy 
objective. This should now include the provision of lethal 
assistance to elements of the Syrian opposition with which the 
United States can acquire agreements on code of conduct and end 
use. The good news is that it is not too late to change course, 
but time--and I cannot emphasize this more--is very, very 
short.
    I have been asked to make a few comments about the 
situation on the ground, as I see it, based on not only my 
observations from here but from my trips to the region. The 
death toll in Syria's 17-month uprising, as Chairman Kerry 
said, is around 20,000, with 30,000 around in detention, but 
hundreds of thousands are internally displaced. The uprising 
started civilian in nature but has since morphed into an armed 
uprising, insurrection, in response to the Assad regime's 
crackdown. The Assad regime, armed to the teeth by Russia and 
Iran, continues to implement what they call in Syria the 
``security solution'' to cow the opposition into submission. 
Much to the regime's chagrin, it can militarily clear areas but 
it cannot hold them. Akin to the carnival game, whac-a-mole, 
every time Assad attempts to hit the opposition's head, it 
disappears only to pop up somewhere else. The opposition is 
giving the Assad regime precisely the opposition it cannot 
decapitate which slowly wears down the regime's forces but, 
sadly, not before the regime and its killing machine take 
thousands more Syrians with it. Before Syria achieves its slow 
motion revolution, it seems set to suffer, as Chairman Kerry 
outlined, a slow motion massacre.
    Washington's response to this worsening situation has been 
to isolate Assad, sanction his regime and its members, and 
pursue U.N. action that, if achieved, would open the door for a 
multilateral effort to bring down the Assad regime. It has not 
worked because Russia continues to veto resolution after 
resolution on Syria, most recently a chapter VII resolution to 
implement the Action Group for Syria Communique of June 30. 
Meanwhile, Washington has given its Middle East allies, Turkey, 
Saudi Arabia, and Qatar, a nod to support the opposition with 
lethal as well as nonlethal assistance. And some dedicated 
people in the U.S. Government, who I applaud, have spent the 
last few months reaching out to the opposition inside of Syria 
and mapping their positions and providing limited nonlethal aid 
to the nonviolent opposition.
    The picture is still far from clear, but the Syrian 
opposition can best be described as headless but not leaderless 
and with a general flat structure. Had we based our strategy 
last winter on what was happening on the ground in Syria, we 
would have had much better visibility not only in terms of 
military operations, but these groups' political aspirations 
now and into the future as well. The YouTube videos streaming 
out of Syria tell us how they fight and their immediate goal of 
bringing down the Assad regime. But they tell us precious 
little about their long-term political aspirations, assessments 
that can only be achieved kinesthetically through working with 
groups directly on the ground. And by not directly working with 
the Syrian opposition, armed and unarmed, the United States 
will know little about how to influence them. In some cases, it 
will be because we do not know them. But if we continue on our 
current path, it is more likely that they will be angry that 
the United States stood by and did far less than it could have 
to accelerate Assad's demise, which is apparently our policy 
objective.
    As has been mentioned earlier, third forces are afoot in 
Syria, some against United States interests, and they are 
stepping in to fill the void that has been created in this 
chaotic situation in Syria. Anecdotal and media reports 
indicate that individuals and governments in Turkey, Saudi 
Arabia, and Qatar, as well as others, are sending much-needed 
lethal support to the opposition. In fact, there was a report 
yesterday that MANPAD's had actually showed up in Aleppo.
    In terms of state policy, all openly support the U.S. 
short-term interests of bringing down the Assad regime, but it 
is still far from clear if they support U.S. long-term 
interests, including a democratic and secular Syria that 
respects minority rights and shuns terrorism, let alone Middle 
East peace. In addition, third forces such as al-Qaeda 
affiliates, including Jebhat al-Nusra or the Nusra Front, have 
established a presence in Syria. There are increased reports 
over the last few months of increased foreign fighters entering 
Syria, and that is in all areas not just in the north where it 
was previously outlined.
    In my written testimony, I have talked a bit about laying 
down redlines for the Assad regime which surprisingly, despite 
the length of the uprising, the Obama administration has not 
yet done even with news recently that the Syrian regime is 
moving its chemical weapons, which has set off extensive 
speculation in the U.S. Government about what Assad may be 
prepared to do with those weapons as his control over the 
country deteriorates. It would be comforting to think that 
Assad knows that using such weapons of mass destruction would 
be crossing a redline, but unfortunately, that would be too 
optimistic. In fact, I think as the evidence shows, Assad's 
response to the uprising thus far--he has ignored every 
international ultimatum.
    The international community, therefore, faces a dilemma. 
Should chemical and biological materials be put at the disposal 
of those running a possible Alawite rump regime and those 
directing the shabbiha armed gangs roaming the Syrian 
countryside, there is much greater likelihood of atrocities or 
genocide. And it is not only the pro-Assad groups that the 
United States must worry about. As the Syrian regime loses its 
grip on power, the roughly 45 different CW facilities and tons 
of chemical weapons materials that United States officials 
estimate are scattered across the country could fall into the 
hands of Sunni extremists. Like the regime, these extremists 
cannot be counted on to act responsibly about CW. They might be 
tempted to use it against the regime and its supporters as 
well.
    In conclusion, my best estimate is that it will be those on 
the ground who are now taking the shots against the Assad 
regime that will be calling the shots after he is gone. While 
the Obama administration is reticent to intervene militarily in 
Syria, in some cases for good reason, while in others not, 
actively assisting the opposition within Syria to take power 
would be a foreign policy ``threefer'' for Washington: Assad 
and those directly linked to his killing machine would be gone; 
the United States would have an opportunity to foster a new 
relationship with an emerging political entity or entities in 
what is today Syria; and we would eliminate a major ally of the 
Islamic Republic of Iran in the Levant.
    I think I differ here a little bit from the previous 
presentations in that I think it is much more likely that the 
Assad regime is not going to fall, but it depends on what 
falling means. I think it is much more likely that it is going 
to contract. I see no way of effectively doing and intervening 
and trying to influence these developments in Syria without 
some sort of intervention from the United States, be it 
directly in response to CW use or mass atrocities or indirectly 
by supporting the Syrian opposition. I am not advocating 
dropping weapons on the Syrian opposition and wishing them good 
luck, but rather reaching out to them, identifying which groups 
with which the United States can work, supplying them with what 
they need, and watching closely what they do militarily and 
politically in what remains a long and bloody fight for freedom 
in Syria.
    Thank you.
    [The prepared statement of Mr. Tabler follows:]

                 Prepared Statement of Andrew J. Tabler

    Mr. Chairman and Ranking Member Lugar, thank you for the 
opportunity to testify before the Senate Committee on Foreign 
Relations. Over my years of working in Syria and Lebanon, I followed 
closely the committee's hearings on Syria and United States attempts to 
deal effectively with Bashar al-Assad's regime. I think I speak for all 
my Syrian friends and their families in thanking the committee for 
convening this hearing at a key time not only in the Syrian people's 
attempt to end over 40 years of tyrannical rule, but its taking the big 
next step of building a better, more democratic Syria. If Washington's 
limited policy of diplomatic isolation, sanctions, and piecemeal 
support for the opposition continues as is, however, I fear the next 
government in Syria will more likely than not be both suspicious and 
hostile to United States interests. The reason is simple: Washington 
invested too much time in diplomacy at the United Nations instead of 
directly helping the Syrian people hasten Bashar al-Assad's demise. The 
good news is it is not too late to change course. But time is very 
short.
                        situation on the ground
    The death toll in Syria's 17th month uprising is now around 20,000, 
with 30,000 in detention or missing, putting the conflict on par with 
that of the Libyan Revolution. An uprising that started out as civil in 
nature has in response to the Assad regime's use of live fire, 
shelling, helicopter gunships and fixed wing aircraft morphed, quite 
naturally, into an armed insurrection. The Assad regime, armed to the 
teeth by Russia and Iran, continues to implement what they call the 
``security solution'' to cow the opposition into submission. Much to 
the regime's chagrin, it can assert itself militarily but cannot 
``clear and hold'' areas where the opposition operates. Akin to the 
carnival game ``whac-a-mole'', every time Assad attempts to hit the 
opposition's head it disappears, only to pop up somewhere else. The 
opposition is giving the Assad regime precisely opposition it cannot 
decapitate, which slowly wears down the regime's forces. But, sadly, 
not before the regime and its ``killing machine'' take thousands more 
Syrians with it. Before Syria achieves it slow motion revolution, it 
seems set to suffer a slow motion massacre.
                         washington's response
    Washington's response to this worsening situation has been to 
isolate Assad, sanction his regime and its members, and pursue U.N. 
action that, if achieved, would open the door for a multilateral effort 
to bring down the Assad regime. It has not worked because Russia 
continues to veto resolution after resolution on Syria, most recently a 
Chapter VII resolution to enforce the Action Group for Syria Communique 
of June 30--a skeleton transition plan for Syria. Meanwhile, Washington 
has given its Middle East allies Turkey, Saudi Arabia, and Qatar a nod 
to support the opposition with lethal as well as nonlethal assistance. 
Meanwhile, some dedicated people in the U.S. Government have spent the 
last few months reaching out to the opposition inside of Syria and 
mapping their positions. The picture is still far from clear, but the 
Syrian opposition can perhaps be best described as headless but not 
leaderless with a generally flat structure. Had we based our strategy 
last winter on what was happening on the ground in Syria, we would have 
much better visibility not only in terms of military operations, but 
these groups' political aspirations as well. The YouTube videos 
streaming out of Syria tell us how they fight, and their immediate goal 
of bringing down the Assad regime. But they tell us precious little 
about their long-term political aspirations--assessments that can only 
be achieved kinesthetically through working with groups directly on the 
ground. And by not directly working with the Syrian opposition--armed 
and unarmed--the United States will know little about how to influence 
them. In some cases it will be because we do not know them. But if we 
continue on our current path, it will be because they are angry that 
the United States stood by and did far less than it could have to 
accelerate Assad's demise.
                           third forces afoot
    Others forces, some inimical to U.S. interests, are stepping in to 
fill the void. Anecdotal and media reports indicate that individuals 
and governments in Turkey, Saudi Arabia, and Qatar, as well as others, 
are sending much-needed lethal support to the opposition. In terms of 
state policy, all openly support the U.S. short-term interest of 
bringing down the Assad regime. But it is far from clear if they 
support U.S. long-term interests of a democratic and secular Syria that 
respects minority rights and shuns terrorism, let alone supports Middle 
East Peace. In addition, ``third forces'' such as al-Qaeda affiliates, 
including Jebhat al-Nusra, have established a presence in Syria. There 
are increased reports over the last few months of increased foreign 
fighters entering Syria.
                       the mass atrocity red line
    More and more members of the Syrian opposition, especially the 
armed or unarmed elements inside the country, realize that it is up to 
them to take down Assad. While the exiled opposition continues to argue 
over chairs and positions, albeit while doing some laudable work on 
preparing for a post-Assad Syria, all aspects of the Syrian opposition 
continue to advocate direct U.S. intervention in Syria--air strikes, 
no-fly zones, humanitarian corridors, and safe havens. It is unclear 
which option may occur and when, especially in the face of repeated 
U.S. and allied announcements about the limits of all military options 
in Syria, but mass atrocities and/or the use of chemical and biological 
weapons (CBW) would seem the most probable triggers.
    Since the beginning of the Syrian uprising, Washington has 
repeatedly demanded that President Bashar al-Assad desist from 
employing the most brutal tactics against his own people--only to see 
the Syrian regime use them anyway. With the recent assassination of 
four senior Assad regime members coming only days after reports that 
Syria is moving its chemical weapons stockpile, the U.S. Government 
must now draw a line in the sand for Assad. And this time, the Obama 
team must stick to it, or risk a humanitarian and national security 
calamity.
    Recent news that the Syrian regime is moving its chemical weapons 
has set off speculation within the U.S Government about what Assad may 
be prepared to do with those weapons as his control over the country 
deteriorates. It would be comforting to think that Assad knows that 
using such weapons of mass destruction would be crossing a redline--but 
unfortunately that would be too optimistic. After all, Assad has 
ignored every other international ultimatum directed at him since the 
beginning of the revolt.
    The same pattern has held true with attempts to force Assad into a 
negotiated transition through the U.N. Security Council, where Russia 
and China recently vetoed for the third time a resolution that would 
have imposed sanctions against the regime if it did not end its brutal 
crackdown.
    This must end. Washington and its allies must lay down and enforce 
redlines prohibiting the use of Syria's chemical weapons--one of the 
Middle East's largest stockpiles. To do so, Washington should lead its 
allies in the ``Core Group'' of the Friends of the Syrian People 
gathering--Britain, France, Germany, Canada, Turkey, Qatar, and Saudi 
Arabia--in issuing a stark warning to Assad that mass atrocities in 
Syria will be met with an immediate military response.
    Assad's most recent moves are part of a well-established pattern 
that test and push U.S. and NATO redlines. The Assad regime has 
increasingly deployed artillery and combat aircraft to suppress the 
Syrian opposition, despite Washington's warning not to do so. A few 
weeks ago, Syria shot down a Turkish F-4 fighter jet, a provocation for 
which it received only verbal condemnation by NATO. The Syrian 
Government's history of such reckless moves stretches back years: In 
2010, Assad reportedly transferred Scud D missiles and M-600 rockets to 
the Lebanese militant party, Hezbollah, essentially handing strategic 
weapons to a third party and removing his ability to restrain the self-
proclaimed Party of God.
    When Bashar was master of Syria, such behavior was seen as an 
annoyance rather than a threat to U.S. national security interests. 
Today, all that has changed. The Assad regime is mired in a grinding 
conflict with the Syrian opposition, in which it is steadily losing 
control, as demonstrated by the July 18 assassinations of senior regime 
figures in the heart of Damascus and recent battles there and in Aleppo 
with the opposition. Furthermore, a number of massacres by Alawite 
forces in Sunni villages around the cities of Homs and Hama indicate 
that Alawites and the regime they dominate may be attempting to clear 
Sunni villages in order to set up a rump Alawite enclave in their 
historic homeland along the Syrian coast in the event of regime 
collapse.
    The international community therefore faces a dilemma: Should 
chemical and biological materials be put at the disposal of those 
running a possible Alawite rump regime, and those directing the 
shabbiha ``armed gangs'' roaming the Syrian countryside, there is much 
greater likelihood of atrocities or genocide. And it's not only the 
pro-Assad groups the United States must worry about: As the Syrian 
regime loses its grip on power, the roughly 45 different CW facilities 
and tons of chemical weapons materials that U.S. officials estimate are 
scattered throughout the country could fall into the hands of Sunni 
extremists. As I mentioned, these groups not only do not share 
America's long-term interests in Syria, but increasingly resent 
Washington for standing by and doing little while Syrians are 
slaughtered. This sentiment is unlikely to improve if Washington and 
its allies simply watch and hope for the best while the Assad regime 
moves around its chemical weapons stockpile.
    The time to act is now, before disaster strikes. By leading an 
effort to warn the Syrian regime about the dire consequences of using 
its chemical weapons stockpile, and raising the possibility of a 
military response in the event that effort fails, Washington will be 
communicating to Assad that he would be sealing his fate if he crosses 
this last remaining redline.
                                end game
    My best estimate is that it will be those on the ground who are now 
taking the shots against the Assad regime that will be calling the 
shots after he is gone. While the Obama administration is reticent to 
intervene militarily in Syria--in some cases for good reason, while in 
others not--actively assisting the opposition ``within Syria'' to take 
power would be a foreign policy ``threefer'' for Washington: Assad and 
those directly his killing machine would be gone, the U.S. would have 
an opportunity to foster a new relationship with the emerging political 
entity or entities in what is today Syria, and we would eliminate a 
major ally of the Islamic Republic of Iran in the Levant. Getting there 
will be hard, but if Washington does not start now the United States 
runs the risk of playing catch up when it is too late.

    The Chairman. Thank you very much. A lot of information on 
the table, a lot of different concepts.
    Let me pursue with you, Mr. Tabler, just a couple things. 
You particularly prompted my curiosity with a couple of your 
last comments, and I want to explore it a bit.
    But let me just say beforehand so people are aware: This is 
our third hearing on Syria publicly, but we have had four 
classified briefings/hearings, one as recently as last night, 
and then last week, the Foreign Relations Committee alone had 
one. So we are digging into a lot of this stuff, and some of 
the things that you assert are--for instance, with respect to a 
redline, I cannot go into the details here, but I can tell you 
there is a redline and people know what it is. The people who 
need to know know what it is without going into any further 
discussion of it.
    But let me sort of explore with you a couple things first. 
You just said in some cases for good reason they have chosen 
not to be supportive, and in some cases not. Can you flesh that 
out a little bit for me?
    Mr. Tabler. Sure.
    The Chairman. What are the instances where it is for good 
reason and when is it not for good reason?
    Mr. Tabler. Right. I think that oftentimes there are--I 
find it very interesting that when talking about intervening in 
Syria, that there seems to be a laundry list of reasons to do 
very, very little. I understand that because I lived in that 
country. I understand its complexities, its political 
complexities, and then in terms of intervention, as Ambassador 
Dobbins laid out, there are military complexities as well.
    I realize Syria has formidable air defenses. I think that 
the United States and its allies can take care of them if it 
wanted to or if it had to.
    The Chairman. Well, let me just say there is no question 
that we can. I mean, that is not the issue.
    Mr. Tabler. Correct.
    The Chairman. The question is at what cost and with what 
implications.
    Mr. Tabler. Well, exactly. I think, though, that it depends 
on what your foreign policy objectives are at this moment. I 
think the Obama administration was wise in saying that 
President Assad had to step aside and that that is actually the 
solution to this problem. The problem is, though, by not doing 
more to accelerate that, is that you are setting off that 
sectarian war in the Levant that you supposedly want to avoid. 
It is because the regime is dominated by Alawites. It is not 
completely Alawite, but dominated by Alawites and other 
minorities, and the opposition is primarily Sunni. The clash 
between these two forces very quickly turns into that sectarian 
war that you fear.
    So if we really fear that--and we do not want to set that 
off for a variety of reasons, including chemical weapons and 
biological weapons and so on--then doing more sooner rather 
than later would seem to make sense. It would be easier to 
control direct action in Syria than indirect action, but we 
seem to be very reticent to do that as well. So then we get 
into the very difficult game of supporting indirectly groups 
inside of Syria.
    And I can tell you we do not know that much about--I think 
you have been receiving briefings. I can tell you I have never 
seen a conversation in Washington where there is such a free 
flow of information between those of us that work on Syria and 
the U.S. Government in terms of what is actually going on on 
the ground inside. And it is there--and I emphasized this in my 
testimony--we were just far, far too late in recognizing that 
this conflict is being driven, this hurricane, political 
hurricane that has developed, by events on the ground not by 
what happens in Geneva or in New York.
    So I think that there is a lot more to do, but the question 
is what is the wisest move. It seems right now that the wisest 
move, in terms of moving our lines forward, would involve 
supporting the opposition inside of Syria with all the pitfalls 
that go along with it.
    The Chairman. Well, there has been, as you know, in the 
meeting in Paris and the other meetings--Istanbul or 
elsewhere--very significant efforts made to flesh out who is 
the opposition. I mean, do you know precisely who you would 
provide weapons to?
    Mr. Tabler. Absolutely not, but----
    The Chairman. Well, do you not think we need to know that?
    Mr. Tabler. Absolutely.
    The Chairman. I mean, that component of the opposition is 
in the process of now consolidating and in fact defining its 
goals and leader hierarchy.
    Mr. Tabler. That is correct. Then therefore, as I outlined, 
I think the first step is that we are going to have to do a 
much, much better job of actually not only identifying and 
mapping these groups, which I think a lot of the U.S. 
Government has been doing including in the State Department--I 
was actually praising a number of them who have taken on this 
task--but also we are going to have to directly engage with 
these groups and see what they can do. It is because in my 
opinion I think this is more likely to be a grinder conflict in 
which the regime contracts. Ambassador Indyk talked about a 
rump Alawite state. I think that the breakup of Syria, at least 
temporarily, is much more likely than the regime just tipping 
over, and therefore, we are going to be dealing with multiple 
communities inside of Syria that could simply--some of which 
could be supportive of United States interests and some of 
which could be directly opposed to us.
    The Chairman. I would like to ask all of you to sort of 
comment on this next question, which is part of that. What is 
the danger here--and is there anything at all we can do about 
it--of this majority Sunni emergence, for very understandable 
reasons, supported by other Sunni nations in the region with an 
Islamist agenda?
    Mr. Tabler. It would depend on what kind of Islamist agenda 
it would be. Is it likely that groups which have Islamist 
agendas, including the Muslim Brotherhood or Salafists, are 
going to have a strong role in a post-Assad Syria? Yes, that is 
likely. But Syria's Sunni community is also very divided and I 
think will remain so. Sunnis from the northwest who are very 
conservative are very different than tribal Sunnis from the 
east or those who are tribal but settled in the south in Daraa, 
let alone the minority communities which will probably not join 
Islamist parties, at least not in large numbers.
    In terms of extremists, it is possible that in a post-Assad 
Syria, if they have completely fill the void that has been 
created in the country without more, I think, assistance from 
the West, I think it is likely they could perhaps shoot above 
their weight in a post-Assad Syria, but I do not think they 
would be able to hijack that Sunni political space.
    The Chairman. Ambassador Indyk.
    Ambassador Indyk. First of all, as a general principle, I 
think we have got to be careful of avoiding falling into the 
trap of the jihadist bogeymen that has been used by our 
previous allies like Hosni Mubarak to convince us not to do the 
thing that we thought was the right thing to do. So, Andrew I 
think laid out of the complexity of Syria. But Syria has been a 
secular country for a long time and there is not a natural 
breeding ground for al-Qaeda there. It is the conflict that 
provides the opening.
    And I endorse the idea, which I think you also support and 
the administration is now doing, which is more active 
engagement with the insiders, the people who are doing the 
fighting. I thought that Jim Dobbins put it very well. That is 
where the leadership is going to be forged in ``the crucible of 
war.'' His words. But I think it is exactly right.
    And part of the engagement in which we should be looking at 
the question of whether we need to arm them, but in that 
process, we need to make clear there are certain requirements. 
And one of the most important is that they stand up and 
articulate a vision of a post-Assad Syria which stands against 
the kind of things that 
al-Qaeda and jihadists want to promote. They need to be taking 
the lead in defining the kind of Syria that they want, and if 
it is consistent with our vision, then we should be supporting 
them more actively.
    The Chairman. Do you want to comment, Ambassador Dobbins?
    Ambassador Dobbins. Please. I mean, al-Qaeda and similar 
groups are essentially parasites. They will attach themselves 
to any Muslim insurgency anywhere in the world. They will pick 
sides and they will participate in an effort to gain 
credibility, to gain recruits, to gain visibility.
    The best way to marginalize extremist groups like that is 
not to suppress the insurgents but to support the insurgents. 
This is what we did in Bosnia where we supported Muslim 
insurgents against orthodox Christian persecutors. This is what 
we did in Kosovo. This is what we did in Afghanistan where we 
supported the Northern Alliance, the Muslim insurgents, against 
an oppressive Taliban government. And this is what we did in 
Libya where we supported the insurgents. And in each case, we 
were successfully able to marginalize these more extreme groups 
within the resultant regimes.
    There is not an insurgent in the world who would not rather 
have American support than al-Qaeda's if he is given that 
choice. And so what we are arguing--at least what I am arguing 
here--is that we ought to give them that choice.
    The Chairman. Thank you very much.
    Senator Lugar.
    Senator Lugar. I would like to ask sort of the basic 
question we perhaps began with and that is the idea that we do 
have a foreign policy with regard to Syria right now and that 
is that Assad must go. And so having come to that point, this 
sort of follows that Mubarak must go and that Qadhafi must go. 
And we seem to have adopted a pattern with regard to the Arab 
Spring and the Middle Eastern states that these are 
authoritarian regimes. It is simply a matter of time until 
people in the country decide that they want to replace their 
leadership.
    We could, I suppose, note that there are authoritarian 
regimes in many other continents, really all over the world, 
and that as a matter of fact, it may very well be in the course 
of a few years of time that people will want to revolt in those 
countries. And our first analysis may be that whoever the 
leader is must go, that it finally is time that the 
authoritarian regime is gone. But as some have pointed out, we 
have been down that trail.
    Without oversimplifying it, I was impressed with Tom 
Friedman's column in the New York Times on Sunday in which he 
points out that essentially in Iraq, we adopted the thought 
that Saddam Hussein must go and, as a matter of fact, sent in a 
very substantial military force to make sure that occurred. 
Then we really did intervene with regard to who should rule the 
country. It is a long story, but we spent the better part of 10 
years working our way through this situation until finally some 
elections were held and the Iraqis decided that we ought to go. 
And they may or may not have determined their fate finally. But 
this was very expensive in terms of hundreds of billions of 
dollars, loss of American lives, and so forth. But, 
nevertheless, we have not been deterred from this kind of 
thinking with regard to other countries.
    What I want to ask just basically, if you are a ruler of a 
country and you may be a very evil ruler with very bad thoughts 
about life in general, why is it necessary that we as a matter 
of American foreign policy dictate that you must go? And is it 
not logical that if you are such a ruler, you will use whatever 
force you have to retain control of your situation?
    And now making it more complex, as you have all pointed 
out, in the case of Syria, if you are with a small group, the 
Alawites--and as a matter of fact, they are not deserting, and 
you have all suggested it may end up with a breakup of Syria 
geographically with the Alawites, as a matter of fact, becoming 
a small country or part of the picture. As opposed to whether 
Assad goes or not, the Alawites may decide we do not want to 
go. As a matter of fact, we are prepared to fight.
    So we can give advice to all sorts of other groups in Syria 
on how to deal with Assad, but then we begin to get into the 
facts of how do you deal with the Alawites. Do you go after 
them? Is our mission then a united Syria?
    And the question will rapidly arise outside of the forum of 
this committee with the American people as a whole, what kind 
of popular support is there in the United States for this sort 
of complex intervention country after country? And my judgment 
for the moment is very little. As a matter of fact, foreign 
policy as a whole, as many have pointed out, has a very small 
part in our own national debate currently. So this is occurring 
on the fringes but it occurs very rapidly in the middle if it 
costs money, if it costs lives, and if it sets a precedent for 
further intervention.
    So I am sort of basically asking the question why should 
the United States, as a matter of foreign policy, our own 
security policy, intervene at all beyond at least the debates 
that we have had in international fora asking the Arab League 
what do you have to do about all of this. There are others who 
are much more intimately involved, it would seem to me, in 
terms of their national interests than our own.
    Can you give me an overall thought as to what the interests 
finally are of the United States that are so vital that we 
ought to risk money and lives in Syria?
    Mr. Indyk.
    Ambassador Indyk. Thank you, Senator Lugar.
    First of all, on your point about declaring the objective 
as being that Assad must go and Mubarak must go or Qadhafi must 
go, I actually think it is a mistake for the United States to 
be deciding those things in that way or making it look like we 
decide when they can stay and when they can go. I think it is a 
lesson from the Arab Awakening that the Obama administration 
should take on board. It is up to the people of Egypt or Libya 
or Syria to decide whether their leaders should go or not. And 
in the case of these authoritarian leaders, we should support 
that. But we should be supporting it; we should not be 
dictating it. And we have too often in the Arab Awakenings put 
ourselves in the position where it looks like we are dictating 
it, and I think that is a mistake.
    It is particularly a mistake--and I think this is what you 
were getting at. It is particularly a mistake if we articulate 
the objective and we are not prepared to take the action to 
achieve that objective because then it opens up a gap between 
our objective and the means that we are prepared to use to 
support it and that creates a credibility problem for the 
United States.
    And the third problem, which was really driven home by what 
happened in Libya, is that if we get a Security Council 
resolution in that case with the acquiescence of the Russians 
and the Chinese and the Indians and the Brazilians that was 
designed to protect the Libyan people but had nothing, no 
language, there about overthrowing Qadhafi, that we would have 
been much better off using the language of protecting the 
Libyan people that would have led to their overthrow of 
Qadhafi, which in fact happened, but without the expression of 
the objective because that torqued the Russians and the Chinese 
in particular and gave them an excuse, which has come back to 
haunt us in Syria, that they are not going to allow any kind of 
U.N. Security Council resolution because we took it and used it 
as an excuse for a regime change, which they are not prepared 
to support, at least not yet.
    So for all those reasons, I think it is a mistake to 
articulate it in that way even though it may be our objective. 
We should be supporting the aspirations of the people of Syria 
who seek to overthrow the regime, and that presentation I think 
is important.
    Now, the second point is will the American people support 
an intervention. And I think it is true that you would know 
this better than I because you have constituents that express 
this, but the American people seem to me to be war-weary 
particularly of wars in the greater Middle East, 10 years on, 
the longest wars in our history, as you said, a huge price paid 
in both blood and treasure. People are not ready for another 
intervention in the Middle East, and I think that is why there 
is a constraint that operates on the behavior both of President 
Obama and of Governor Romney in terms of the positions that 
they articulate in this situation.
    But as the situation deteriorates and if we see the kind of 
humanitarian disasters that we fear, that is, massacre on a 
large scale or use of chemical weapons for the purpose of 
ethnic cleansing, then I think the American people will reach 
the point where they say the United States has to do something 
about that.
    It would be unfortunate if we had to get to that situation, 
and that is why I think the discussion about other ways to help 
the opposition which, as Jim Dobbins has pointed out, they are 
on the winning side--they are making surprising progress. I 
must say I was surprised--maybe Andrew was not--that they were 
able to carry the fight to Damascus and Aleppo so quickly. And 
I think that we really need to get behind them with all the 
other things that we talked about this morning to try to avert 
the situation in which the American people finally come around 
to supporting a much more boots-on-the-ground type military 
intervention of the United States.
    Senator Lugar. Thank you very much.
    The Chairman. Thank you, Senator Lugar.
    Senator Coons.
    Senator Coons. Thank you, Chairman Kerry, for holding this 
hearing.
    And I want to thank this panel of distinguished witnesses 
for their insight and their experience and what you have shared 
with us about the increasingly volatile situation in Syria and 
the unconscionable levels of violence. As we all know, the 
Assad regime has moved from an aggressive internal crackdown to 
now mass atrocities against its own people and seems likely, as 
has been suggested, to engage in a grinding internal conflict 
that hopefully will not cross redlines of using weapons of mass 
destruction against 
its own people, but they have so far shown no limitation in 
their capability, willingness, and inclination to use heavier 
and heavier weapons.
    So I am gravely concerned that we need to do more. We must 
do more to rally the international community to lead 
responsibly. And you have laid out a number of very challenging 
and interesting questions about how we can more effectively do 
that.
    I am strongly inclined to join Senator Rubio in supporting 
tougher sanctions. I am going to urge more active engagement, 
as you suggest, in mapping the opposition and in engaging with 
them both within and outside Syria and doing more to support 
what I think will ultimately be the successful opposition in 
their efforts to remove Assad and his regime.
    But I would be interested in hearing some concrete input on 
a few more points, if I could.
    How do you think we can actively engage with the opposition 
on the ground within Syria and outside in the region in a way 
that is best likely to bridge divides, sectarian and regional 
divides internally, that is best able to give Alawite generals 
some sense of a post-Assad future and some buy-in to a 
transition and that is most likely to lead to some prospect for 
a post-Assad Syria that remains a unitary state and where there 
is respect for human rights and some prospect for democracy? 
And where can we make the greatest missteps in that engagement?
    Mr. Tabler strongly suggests that by really solely focusing 
on a U.N. and a Geneva outside-of-the-region multilateral 
effort, we are failing to address emerging conditions on the 
ground.
    Ambassador Indyk, you I think raised some very important 
points about encouraging defections and not overreaching.
    And I believe, Ambassador Dobbins, you were also pointing 
out that the post-Saddam Iraq has some very pointed lessons for 
us about not completely dismantling the security forces and the 
very real risks should that happen.
    So my core question, How can we best engage on the ground 
in Syria with the opposition and regionally to encourage a 
transition that bridges rather than exacerbates sectarian 
divides? If you would just in order, Ambassador Indyk, 
Ambassador Dobbins, Mr. Tabler.
    Ambassador Indyk. Well, first of all, I do not think it 
should be done at the expense of that diplomatic effort at the 
international level.
    Senator Coons. Agreed.
    Ambassador Indyk. And there is no reason why we cannot do 
both at the same time because we need both.
    And I am interested to hear you say that about the 
sanctions because I do think there is more that we can do on 
the sanction front. In fact, we have not done as much as the 
Europeans have done on that front to make it much more 
uncomfortable for people to support the regime.
    On the ground, well, I will defer to people who have more 
expertise on that. I think Andrew can address it.
    But the key decision here is to focus on the inside rather 
than on the outsiders. We spent a lot of effort with the 
outsiders--frankly, it has failed at least so far--to unify 
them, to get them to articulate a clear vision for a post-Assad 
Syria and it seems impossible. We should have learnt from the 
experience with the external Iraqi opposition which was very 
similar. There are plenty of Chalabis around, but to get them 
all to work together in an effective way seems to be a full-on 
mission particularly because they are not connected with the 
people who are doing the fighting. So I think getting in there 
on the ground, which I believe we are already doing, and 
mapping it, trying to understand who these people are, forging 
the relationships with them, figuring out who is reliable, who 
is not, and then helping them, helping them in whatever ways we 
can especially in terms of intelligence assistance because they 
are fighting a war.
    And then, of course, on the military side, whether we can 
do it through the Turks and the Qataris I think would be 
preferable but it may reach a point where we have to provide 
them with the kind of equipment, but it is important that we do 
it because we may, thereby, have a greater ability to control 
what happens to it than if it is sent through proxies.
    Senator Coons. Thank you.
    Ambassador Dobbins.
    Ambassador Dobbins. I will defer to Andrew on who we should 
be engaging. I think he is much more familiar with the actors.
    I would just say that if we have something to offer, we 
have a better chance of a meaningful engagement. And to the 
extent we are offering arms, training, and other forms of 
assistance, we are going to empower those whom we engage with. 
And so we have an opportunity to shift the balance within an 
opposition that is still somewhat disunited toward those 
factions that are most likely to work toward the future of 
Syria that we have all talked about.
    Senator Coons. I agree.
    Mr. Tabler, you spoke to a headless but not leaderless 
opposition within and without Syria. I would be interested in 
your thoughts as well.
    Mr. Tabler. Sure. To answer your question and its essence, 
actually the Assad regime is very good at confusing those on 
the outside, and there is good reason for that. It is also a 
very confusing country. I found that the best way to deal with 
it was to make my decisions first based on what it was that I 
was after, if I was investigating a story, if I was writing 
something, and it was not just in terms of what my overall 
policy goal was.
    So in this particular case, for example, we are looking at 
a situation where we are trying to examine the opposition 
within Syria. And as Ambassador Indyk says, there have been 
some real limitations with the opposition in exile. Those are 
actually the words of President Obama after his meeting with 
Prime Minister Erdogan. What does that really mean?
    Well, there are a number of groups that are on the ground 
which are very influential. Revolutionary councils particularly 
in Homs have been very effective. Elements of the Free Syrian 
Army, which is essentially a sort of franchise organization. So 
there are many different factions of it. Those would be groups 
that I can identify immediately with whom we should be building 
closer relationships and trying to understand. And I think that 
we are, but again it was far too slowly.
    The way you do that is actually quite simple and then gets 
more complicated. If you go to border areas, the fighters just 
are not inside of Syria or those that are in exile. They come 
and go all the time. They come and go all the time not just to 
Antakya and to Kilis but also to Istanbul as well. You can meet 
them all the time. They have been waiting to meet with us for a 
long time. U.S. Government officials were actually forbidden 
from meeting with anyone in the Free Syrian Army up until 
earlier this spring.
    Then what you do is you can also communicate with people 
who are inside the country. We do it at my institute all the 
time. We Skype with people who are inside of the country. That 
is one of the wonderful things about the Syrian revolution is 
that so much of it takes place online in the sense that you can 
easily and readily access these, oftentimes including video.
    Now, of course, you have to then weigh that up. You have to 
listen to your gut, and that is where you have to experiment 
and kinesthetically try and understand who you are dealing with 
and what they are capable of. It is very difficult work and it 
is work that, though, I think if we base our strategy on that 
and working with some allies as well who are doing similar 
operations, we are much more likely to turn the tide against 
the Assad regime inside the country. That will bend the 
Russians eventually because in this case to Senator Lugar's 
earlier point about interests, it is not just about morals. It 
is about placing your bets going forward.
    You see, the Assad regime is in systemic failure. It is a 
minority-dominated regime that cannot reform, that rules over 
one of the youngest populations in the Middle East outside the 
Palestinian Territories. There is no way that it can hold on. 
It can hold on in a more limited form, but it is just systemic 
failure. You see, we are placing our bets for a future in the 
Levant and the only way to do that is to engage it as it is. 
And if we do not do that very rapidly, I fear that we are going 
to lose all the texture of what is going on, and unfortunately, 
we are going to be handing it over to, in some cases, our 
allies in the region, but also a lot of our adversaries.
    And this is where the earlier comments about al-Qaeda 
become much more dangerous. Jebhat al-Nusra inside of Syria is 
real. It is growing. There are more foreign fighters inside of 
Syria. They have not hijacked the revolution, but if they are 
the ones who are coming to the Syrian people's assistance while 
the United States does relatively little, we should not be 
surprised in a post-Assad Syria that they look upon those other 
forces more favorably than they do us.
    Senator Coons. Thank you for your testimony. Thank you to 
the panel.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And I thank all of you as witnesses. I think this has been 
one of the more interesting discussions we have had on foreign 
policy in a while, and I think that part of the discussion 
today centered on the fact that--talking about our national 
interests. And I think one of the things that we as a committee 
and Congress can do in general that we have not done is really, 
in advance of issues like we have in Syria, more fully lay out 
what it is that drives us into kinetic activity and what our 
national interests are and to begin looking at some of the 
important issues. We tend to, it seems to me, respond to many 
of these things in an emotional way at the moment and say some 
things, Mr. Indyk, as you have said in your testimony--say some 
things--these are my words--that sort of respond to the 
emotions of the time. But we really strategically do not talk 
about those things in advance. We really do not develop a lens 
here through which all of these conflicts ought to be looked 
at. And I hope that over time the committee will do that.
    As I listened to your testimony, it is sort of three 
schools of thought. We have one who is really focused on 
diplomacy, and I appreciate your insights. And Mr. Dobbins, 
this is not a pejorative statement, but it is more a lead-from-
behind approach, if you will, I think and I think there is a 
lot of merit to what you have said about that. And then a much 
more direct involvement from you, Mr. Tabler.
    One of the things our State Department I think would say if 
they were here is, look, things are going pretty well right 
now. I mean, the folks that we like are gaining momentum, and 
why would we get involved and mess that up? You know, a lot of 
unintended consequences. When I say that, by the way, I am very 
aware of all the violence on the ground, the lives that are 
being destroyed and people that are being harmed, and I am in 
no way making light of that. But I think our State Department--
as a matter of fact, I know they would say it--is, look, things 
are going pretty well right now. Why would we get involved and 
create some unintended consequences?
    Mr. Tabler, if you would, you never, to my knowledge, 
responded to Senator Kerry's ask about how we militarily get 
more involved, how we arm some of the opposition groups more 
directly, or at least I did not hear it. And I would like for 
you to respond both to what I think the State Department would 
say if they were here but, secondarily, how we would get more 
involved directly in a way that did not lead to unintended 
consequences.
    Mr. Tabler. Thank you for the question.
    If the State Department was here--and I have the pleasure 
of meeting with a number of them pretty regularly. I think that 
actually there have been a number in the State Department who I 
commend who have actually tried to look more closely at what is 
going on actually on the ground in Syria and how to more 
effectively for the United States to indirectly intervene. And 
that involves supporting some of the groups that I talked about 
earlier. That is a type of intervention. It is a slow one. It 
is complicated. There are some unintended consequences but you 
can turn the tap oftentimes on and off, and I think that we 
have done that, not necessarily with the armed groups inside 
the country at least overtly, but some of the civil groups 
inside of the country.
    When it gets into the question concerning the direct 
intervention, that is where you have to really start looking at 
triggers I think. And in there I can see two immediately in 
front of us that are very realistically going to emerge from 
the conflict here in the coming months and that is mass 
atrocities of some type, including massive refugee flows across 
borders, and then the other would be--and it could be in 
combination--use of chemical weapons. These two developments 
could trigger a direct intervention by the United States. There 
are several different plans for that, as I think this committee 
knows, everything from----
    Senator Corker. So you are not then--I, by the way, have 
never heard anybody lay out any redlines, OK, for what it is 
worth. I have been in almost all these hearings and I might 
have stepped out and taken a call. I do think that chemical use 
or biological use would be a redline, and I do think that would 
trigger involvement by us most likely.
    But I thought I heard you advocating direct involvement 
before that type of activity and now in order to shape things 
in such a way that after whatever happens, we had a more 
friendly group on the ground toward our interests. So, if you 
will, do not talk about the redline events, because I think you 
are advocating direct involvement prior to those redline 
events.
    Mr. Tabler. Correct, correct. And I generally describe it 
and my colleague, Jeff White, at the Washington Institute as 
well--we have described it as indirect intervention, and that 
involves actively reaching out with groups which are inside of 
the country, all of whom will speak with us and have wanted to 
speak with us for some time in very lengthy conversations, 
understanding what it is that they want--and this is including 
armed groups as well--and then trying to weigh up, OK, do these 
people support our long-term interests in Syria or not and are 
they worth betting on or not. It is a very detailed--I would 
say it is an intelligence operation, but it is actually beyond 
that because so much of what happens now in Syria is simply out 
in the public. So it also involves some kind of outreach to the 
groups inside of the country much more than we are doing at the 
moment.
    Those in the State Department that are dealing with this--
it is a very limited number of people. They only have so much 
capacity. And that is because a lot of other resources to our 
approach have been directed toward diplomacy, negotiations in 
Geneva, votes and vetoes ultimately in New York, which were not 
successful.
    Senator Corker. So you are not advocating arming directly 
the opposition, if I hear you correctly. You are advocating 
covert operations on the ground, CIA, DIA, other types of 
involvement in that way. Is that what you are saying?
    Mr. Tabler. No. I think we are already doing that. I do not 
know in any kind of detail, but I can say that at this point, 
given the direction of the conflict, I think that what we need 
to do is assess, OK, which groups could we arm, and should we 
arm, at what point and make that decision. And I think that we 
are actually at that decision given where the conflict is 
going.
    Senator Corker. I see the other two witnesses shaking their 
heads up and down. So you all are in agreement that we are at a 
point body language-wise--I would love for you to verbally 
state something. [Laughter.]
    But you all are in agreement that we are at a point where 
we should decide which groups we are going to arm and which we 
are not. Is that what I see the body language indicating?
    Ambassador Dobbins. Yes.
    Ambassador Indyk. Yes. I think that is right. I think to 
say things are going well and therefore why get involved and 
mess it up is, I think, a too optimistic assessment of the 
situation. There is no doubt that Assad is in a situation from 
which he cannot recover, but the things we have talked about 
before are the reasons to be concerned about not taking a kind 
of relaxed view about this. That is, it is different in Syria 
to the other situations we have dealt with. This is an Alawite 
regime representing an Alawite community that essentially sees 
their choice as either kill or be killed. And so the 
consequences can be very bad, and they are coming down the 
road. And the consequences in the region because of the 
sensitivity of Syria's geostrategic location can also be very 
bad for our interests.
    So that is why I think it is important for us to step up 
our active engagement, but to do it in a wise way because you 
are absolutely right that we have to avoid the unintended 
consequences to the extent that we can anticipate them, imagine 
them. So that is why we need to do it in a way that, first of 
all, we understand who we are supporting and what their 
intentions are. And we cannot rely, frankly, on our allies to 
be doing that for us. They have different standards because 
their objectives are different to ours. And so that is why I 
think the answer is, ``Yes.''
    Senator Corker. And I know my time is up. But, Mr. Dobbins, 
I normally like yes or no answers, but in this case if you 
would expand on us directly arming opposition groups, I would 
appreciate it.
    Ambassador Dobbins. I think the time has come to consider 
that and pick those groups that we think are most consistent 
with our interests and our vision for the future and begin to 
advantage them in terms of the internal politics by providing 
assistance, including perhaps money, as well as arms and 
advice.
    I do think there is a dilemma here. There is a risk. We 
support the resistance, the opposition. The opposition, when it 
begins to win, is probably going to itself perpetuate some 
atrocities. There are going to be groups that we support who 
are going to go off and murder Alawites and maybe Christians 
and others. I think, to some degree, that is inevitable. The 
answer to that is it will be even worse if we do not support 
them. If we stand aside and do not get engaged, we can keep our 
hands clean, but the result will probably be an even worse 
civil conflict than if we get involved and use our influence to 
try to attenuate what we probably cannot entirely avoid. And 
there is a political risk involved to that.
    Ambassador Indyk. Could I just add one quick point, Senator 
Corker, which is that this is one part of a strategy.
    Senator Corker. I understand. I know a lot of diplomacy is.
    Ambassador Indyk. Because if we only focus on this, then we 
will not be able to achieve our objectives.
    Senator Corker. And I heard everything you said on the 
front end, and I agree with those points too. Thank you.
    The Chairman. Thank you very much.
    Senator Shaheen.
    Thank you, Mr. Chairman.
    And thank you all for being here. I am sorry to have missed 
your testimony.
    But I just want to follow up a little bit on Senator 
Corker's line of questioning and start by saying I do not 
think, and the officials that I have heard from relative to 
what is happening in Syria, that the approach has been laid 
back and one that has not suggested that we are doing 
everything we can to follow very closely what is going on and 
to try and engage at every opportunity. So my impression has 
not been what I thought I heard a couple of you say that we 
were taking too laid-back an approach on Syria.
    But let me ask you with respect to arming the opposition. 
There have been reports that we are engaged in providing 
communications equipment and other support, that there are 
other countries that are providing arms to the opposition. Are 
you all suggesting that that is not enough and that we should 
be actively arming opposition groups at this time? And if that 
is what you are suggesting, then what do you think we ought to 
be looking for in terms of those groups we should be supporting 
with arms and what the implications of that might be? I do not 
know.
    Ambassador Indyk, do you want to go first?
    Ambassador Indyk. Well, I think, Senator Shaheen, that we 
need to know who we are arming. That is the question that we 
have to answer first. I do not think we quite have that answer 
yet. When we know the answer to that question--and that is an 
urgent question to answer. We need to be actively engaged and 
so I think we are in trying to get that answer. But then, yes, 
once we have that answer, once we are satisfied that these are 
the right people to be arming, these have some responsibility 
and some consistency and some leadership and are committed to a 
post-Assad Syria that involves all of its communities, then 
yes, we should be arming them, but only in terms of arming them 
with things that they cannot get through others. And it is 
precisely those things that we need to know whose hands they 
are in. We need to have some accountability for them.
    Senator Shaheen. Do either of you have anything different 
to add to that analysis?
    Ambassador Dobbins. Well, the risk of operating exclusively 
through cutouts, the Saudis, the Turks--they have objectives of 
their own. They will favor groups that are not necessarily the 
groups that we would favor. The Saudis are likely to favor 
Salafist groups.
    Senator Shaheen. I understand, and I am sorry to interrupt. 
But can you, if you would, describe the kind of groups we ought 
to be looking at if we were looking at arming particular 
groups? What criteria should we have and what kind of values 
should we be looking for?
    Ambassador Dobbins. Well, I think Martin has given a good 
expression of this. I think we should be, obviously, looking at 
those who are--first, there is probably a small minority who 
actually want a secular, democratic Syria. But I think we also 
ought to be looking at moderate Islamists, including perhaps 
the Muslim Brotherhood representatives who are prepared to 
operate within a democratic environment based on popular 
sovereignty and operate much as the governments in both Tunisia 
and Egypt seem to be operating.
    Senator Shaheen. Thank you.
    Mr. Tabler, you mentioned chemical weapons in your exchange 
with Senator Corker, and it is one of the things that I have 
been very concerned about. I know a number of other folks have 
too. When I asked Secretary Panetta about this issue back in 
March, we talked about it in the context of what we saw in 
Libya with the MANPAD's, and he said it would be 100 times 
worse in Syria. I wonder if you could interpret the recent 
reports of movements of the chemical weapons in Syria and how 
we should view that.
    Mr. Tabler. Sure. There is a lot that is handled--this 
issue is traditionally handled by the intelligence community. 
It is well known that Syria has one of the stockpiles of 
chemical weapons in the Middle East. It is not a secret.
    I think that there is particular worry in the regime moving 
them. There are several worries. One is that moving these 
materials makes them subject then to being captured by other 
forces which are actively operating in the country. But I think 
maybe more importantly if these materials are, say, moved to 
some of their facilities near Homs, for example--there is a lot 
of fighting in Homs. Homs is adjacent to the Alawite coast and 
the Alawite mountains where that sect hails from. So if you 
move them into facilities there, they could be not only put at 
the disposal of the regime, which is fighting a struggle 
against the opposition, but could also be put at the disposal 
of an Alawite rump state or an entity of some type. It might 
not even be a state. It could be used as a fear tactic. It 
could be used as a deterrent so that they are not attacked into 
the future, probably a pretty effective one. And that could 
affect the next steps that we all have to make in Syria.
    Then there is the other problem in that there are so many 
different sites and, from what I understand, so much of it is 
weaponized that it could fall into the hands of some of the 
insurgents and then they could, of course, use them against the 
regime in a fit of fury, which would of course not be good for 
all concerned, including the United States I think. But also 
those materials then could be sold outside of Syria. And then I 
think it becomes a larger security question for the United 
States. It is incredibly complicated and one again that if you 
stand back and you do not do more in this regard, then I think 
it becomes more risky going forward.
    Senator Shaheen. So are you saying then that you think the 
movement of the weapons is because the Syrians are interested 
in having all of those options for using them. It is not, as 
some have speculated, to move them to a safer place to make 
them more secure.
    Mr. Tabler. It depends on safer for whom. I think that the 
regime would like to have it at their disposal. It is not 
because they do not believe that they are trying to sort of 
live up to whatever commitment they have, even privately, 
concerning nonproliferation. I think that they would like to 
have it at their disposal to use as they are on their way out. 
But ultimately those choices are with Bashar al-Assad and his 
regime.
    And I can only say from someone who lived in Syria for a 
long time, Bashar al-Assad is not a very rational actor. He is 
quite unpredictable and Janus-faced. And this goes for his 
entire regime. It makes him very different than his father 
Hafez. It was a major miscalculation to think otherwise. 
Unfortunately, Bashar, when cornered--we just do not really 
know what he is going to do. So in such a case, it would be 
better to err on the side of caution.
    The question is what can we really do other than issue some 
of the private redlines that I think have not issued recently.
    Senator Shaheen. Mr. Chairman, my time is up but could I 
ask one more followup?
    The Chairman. You may.
    Senator Shaheen. I asked General Mattis, the CENTCOM 
commander, this question back when he was before the Armed 
Services Committee, and his response was that it would require 
an international effort to secure the chemical weapons. I 
wonder if you, Mr. Tabler, or either of our other panelists 
could speak to what that international effort might look like 
and whether we should feel like it is underway now, or have we 
heard any attempts to address it?
    Ambassador Dobbins. It depends on what we mean. I think the 
actual dismantling of these weapons could take place under some 
sort of international regime, not a military regime, but 
technicians who would come in with the cooperation of the then 
Syrian government and begin to dismantle these weapons. I think 
there are precedents for that, and that is perfectly plausible.
    I think some sort of international military force that 
would rush in and seize the sites is less plausible. I think 
the desirable outcome is that the Syrian military continue to 
secure these sites under the oversight of a new government, and 
that is why, as others here have suggested, we want to, and 
are, counseling the opposition not to go down the road we went 
down in Iraq to disperse the military but rather to try to 
retain them as a coherent and cohesive force under a new 
government and thereby retain control of those weapons. And 
either Syria will continue to have the weapons or it will be 
under diplomatic pressure from the United States and others to 
give them up in an internationally monitored way.
    Ambassador Indyk. I did not hear General Mattis' remarks, 
but there is potentially other interpretations of the word 
``international'' which means Israel. Israel has made it clear 
that this is a redline for them. You know, Israel is not up in 
space in this situation. The Israeli defense forces on the 
Golan Heights are 40 kilometers from Damascus and it is 
downhill. And they have a capable army. This for them is 
unacceptable if the chemical weapons are handed over to 
Hezbollah. So I think that is their particular redline that 
they are looking at. I would guess that Secretary of Defense 
Panetta has been talking to them about under what circumstances 
it might be necessary to intervene.
    In this very specific case, because I do not think it is a 
good idea for the Israelis to be intervening in Syria--I do not 
think they want to in other circumstances which would enable 
Assad to turn this into an Arab-Israeli conflict. But in these 
particular circumstances, the Israelis have a better ability 
than I think anybody else to get control of those weapons, 
particularly if they have been transferred or if they are about 
to be--I mean, if the control of them is disintegrating and 
they are about to be taken up by elements that we would not 
want them to get hold of, that is, jihadi elements.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Shaheen.
    Before we wrap up here, I want to try to bear down on a 
couple of things that I think are sort of hanging out there 
that, at least in my mind, are not quite as clear as I would 
hope they might be.
    Senator Lugar appropriately put the larger question of 
intervention on the table and bore down on the experiences of 
Iraq and elsewhere and the larger balance here, and I think 
everything that he said is a very important check on anybody's 
approach to or thinking about the stakes here. But at the same 
time, we have interests and I would like to see if we can put 
this into a tighter framework. I do not know if you can.
    But, for instance, there seems to be an agreement that if 
something were to happen with these weapons of mass destruction 
or if there were a sufficient perception of a threat to our 
interests directly or to the region or to allies in the region, 
that we might have to move. Is that agreed? And do you believe, 
each of you, that if that were the case, that would merit 
potentially some kind of intervention? I see nodding, but let 
us have a verbal.
    Mr. Tabler.
    Mr. Tabler. Yes.
    The Chairman. Mr. Dobbins.
    Ambassador Dobbins. Yes, although I am not sure how 
effective that intervention would be ex post facto. The threat 
of the intervention, however, might be very important to 
prevent the use.
    The Chairman. Ambassador Indyk.
    Ambassador Indyk. Yes. And on this issue, we will have the 
Russians with us, and I do not know whether you have noticed 
their statements on this, but they too have warned the Syrian--
--
    The Chairman. They have been pretty clear on it. I agree.
    Ambassador Indyk [continuing]. The Assad regime.
    The Chairman. The second potential trigger that I have 
heard is people talking about some very significant massacre, 
that if all of a sudden there seems to be a blood letting, not 
dissimilar to what prompted President Clinton to move in the 
Balkans, et cetera, that that might trigger us. Is there an 
agreement on that?
    Mr. Tabler. Yes. I think that not only would that be a 
trigger, but I think in terms of getting to Senator Lugar's 
earlier point, there is quite a bit of support in terms of the 
American people about issues of mass atrocities and genocide. 
There was recently a study, a poll that was conducted by the 
U.S. Holocaust Museum in which you can see that the Syrian 
issue itself, isolated, is not a major political issue, but if 
it is combined with other Middle Eastern issues or on genocide 
or mass atrocities, it actually moves very quickly up the 
ladder.
    The Chairman. Do you both agree with that?
    Ambassador Dobbins.
    Ambassador Dobbins. Yes, but I would go a little bit beyond 
that. I am not sure we just sort of passively wait for some 
trigger to move us forward.
    The Chairman. Well, that is my next question.
    Ambassador Dobbins. I think Senator Corker said correctly I 
think that I am advocating that we lead from behind on this. 
But the lead is as important as from behind; that is, I do not 
think we should become the standard bearer for an international 
intervention, but I think we should be quietly working behind 
the scenes to try to align the various things that would need 
to occur to make such an intervention feasible and successful.
    Ambassador Indyk. Yes, but there is also a deterrent 
factor, just as we discussed in the chemical weapons case, that 
we need to be signaling--and not just us, but the international 
community needs to be signaling to the Assad regime that this 
kind of mass atrocities, ethnic cleansing, the deployment of 
chemical weapons for that purpose is a redline for the whole 
international community. And we need to try to deter that from 
happening rather than to wait for it to happen before we 
intervene.
    Ambassador Dobbins. A plausible redline, short of chemical 
weapons use, is the use of fixed wing aircraft to bomb large 
urban conglomerations, and I think that is a redline one ought 
to at least think about. It is the kind of intervention that 
could be taken--it could be just simply cruise missiling their 
air bases. If they did it, it would not necessarily require an 
air war to deter that kind of thing. But there are options 
short of these massive casus belli.
    The Chairman. And in order to do that, do you believe that 
it would require a U.N. resolution of some kind or would it 
require support? Could NATO authorize that? Could the GCC, as 
we saw in Libya, be a sufficient authority for that kind of an 
activity?
    Ambassador Dobbins. I think a Security Council resolution 
is 
obviously desirable. Kosovo demonstrated that you can get 
international support, broad international support, without one 
if necessary. I would think you would want an Arab League 
endorsement or at least a vast majority of the Arab League, the 
GCC, most of NATO, and a clear call from the Syrian opposition.
    The Chairman. Here you get into a sort of fuzzier line, but 
if we are talking about the possible trigger of some sort of 
``large'' massacre, how do you draw the line between a hundred 
people a day in Homs or the army unleashed to walk through a 
neighborhood to kill children and women and just pull people 
out of their apartments and send enough terror in that 
community but, quote, not quite get into that line where 
everybody sees it? I guess what I am saying is there is kind of 
a new normality, and maybe that new normality is way over a 
line that people ought to be willing to accept.
    Ambassador Indyk. I mean, I take your point and it is a 
disturbing observation. But I do think that there is a 
difference in the kind of mass atrocities--imagine deployment 
of chemical weapons that we saw in Iraqi Kurdistan against 
whole areas, designed to clean out Sunnis from this Alawite 
rump state. I think that is the distinction we are talking 
about.
    Also, now that the fighting is in Syria's biggest cities, 
the chances for much higher casualties grows, and that is where 
the fixed wing aircraft issue comes in as well. So I think that 
we are approaching a point where the new normal, as you 
describe it, will look like a picnic compared to the horrors 
that could unfold. So even though I feel kind of queasy about 
this because in a sense you are in danger of legitimizing the 
things that are happening now by drawing a redline against 
those terrible things, but nevertheless, if your standard is to 
try to save as many lives as possible, it is important to do 
it.
    The Chairman. Just so the record is really crystal clear on 
this: Some people might argue or some Americans might feel, 
hey, we have got enough problems. We've got unemployment. We've 
got stuff going on here. We just pulled out of--you know, got 
our troops out of Iraq. We are slowly transitioning in 
Afghanistan and so on and so forth. And so some arguments are 
made, hey, it is their fight and they've got to figure this 
out.
    Why is it in our interest to be engaged in the 
``diplomacy''? Senator Corker was sort of--you know, there was 
a chuckle in the audience about increased diplomacy. Obviously 
not a lot of folks have a huge sense of confidence that that is 
going to work.
    What is the interest here for us? Obviously there are 
interests. I think there are very significant interests. 
Ambassador Indyk, in your testimony you specifically talk about 
the stability of the region and our ally Israel, and those are 
only two, I think, of a number of interests. But I would like 
you guys to articulate for us what are the compelling interests 
here, seriatim, which ought to compel us to say we do need to 
think about arming people or we do need to be more proactive in 
working with the Turks and the GCC and others. What are the 
interests? Why is America's--what, if any, are the interests 
that are at stake?
    Mr. Tabler. Of course, the most immediate issue--and the 
way this is usually handled in public concerns moral and 
ethical issues about how we respond to these kind of atrocities 
and this kind of brutality in Middle Eastern countries. But I 
look at it--I mean, I can never advocate letting the Assad 
regime survive for any moment longer than it has to for those 
reasons.
    But I think in terms of direct interests, what I outlined 
before. What you are witnessing in Syria now is authoritarian 
karma. In the 10 years following the 1982 Hama massacre, most 
Syrians stayed home, the society contracted. And what happens 
when men and women stay home for long periods of time together 
without any good TV? Well, you have a surge in birth rates. 
Syria was among the 20 fastest-growing populations on the 
planet. All those people born of that time and a little after 
are swarming that regime, and it is just in systemic failure.
    And, Senator Lugar, again responding to your earlier 
question, I think it is about America actually betting on, like 
any business would or any individual would, what is coming in 
the very, very near future.
    Second, I think there is the avoidance of a much more 
expensive war in the Levant which could affect directly 
Americans in terms of fuel prices or concerning Israel or a 
number of our other interests that are in the Middle East. 
Syria's importance is geography, and I think that is something 
that we can all recognize.
    There is, of course, the interests in terms of avoiding 
genocide, as I outlined before, and I think those are 
formidable.
    But last but not least--and we have not talked about this 
today, and this is something that affected me as a young person 
watching politics in the Levant and getting interested in the 
Middle East. This would be a decisive blow for the Islamic 
Republic of Iran. I cannot emphasize that enough. And I think 
that is in our interests to roll back Iranian influence 
wherever we find it, as we try and deal with preventing their 
nuclear program. We can do prevention and containment at the 
same time.
    So I think that constellation of interests, alongside these 
moral questions, will guide our choices in the future.
    The Chairman. Ambassador Dobbins.
    Ambassador Dobbins. I would second that last comment. I 
think despite the war-weariness that you suggested, our country 
is poised on the lip of a war with Iran, a war which would be 
far more consequential than getting involved on the side of the 
winners in Syria. And that threat and that potential course of 
action seems to have broad support within our country.
    And yet by far the most decisive thing we could do to 
reduce Iran's capacity to threaten Israel is not eliminate its 
nuclear program. It is to eliminate its access to the Levant 
which it gets principally through Syria. If Iran is denied its 
ability to support surrogates on Israel's border, it no longer 
has any practical way of threatening Israel. It could threaten 
a nuclear exchange in which the United States and Israel would 
both respond overwhelmingly. That is not a plausible threat and 
it would have no other threat. So there is nothing more 
effective, I think, to put the Iranian threat in some 
perspective and reduce its pressure on Israel than to flip 
Syria.
    The Chairman. The Honorable Indyk.
    Ambassador Indyk. Yes, flip Syria. If only we could do 
that.
    Look, this is not about our interests in a secure Israel in 
my view. Obviously, that is important, but Israel in these 
circumstances can look after itself, including dealing with the 
problems of a Syria serving as a conduit to Hezbollah on its 
northern border and Hamas in the south. Hamas has already moved 
out of the Iranian/Syrian camp. That is already plus one for us 
and for Israel and those who want to see peace in the region. 
And Hezbollah is now in danger and feeling quite anxious about 
its situation in Lebanon.
    It would definitely be in our strategic interests if Iran 
were to lose its conduit through Syria. So do not get me wrong 
on that. That is a strategic plus. But what we have got to 
worry about is a strategic minus which is that what happens in 
Syria destabilizes Lebanon, Jordan, Iraq, and ultimately 
Bahrain. And I say that because a Sunni-Shia sectarian conflict 
that starts in Syria is going to spread. We already see its 
potential for spreading to Iraq and certainly in Lebanon and 
Jordan is feeling very pressured at the moment. And if the 
Iranians lose Syria, which is a strategic plus for us, they may 
well play payback in Bahrain, and Bahrain with its Shias 
presents a potential for the way that the Sunni king is dealing 
with it I think is a tragic mistake. There is already 
the potential to blow there. But with Iranian involvement, it 
can blow and spread to Shias in Saudi Arabia who are already in 
the early stages of a revolt, and that can have profound 
strategic consequences.
    So that is, I think, the interests that we have that is 
paramount in this situation, and in order to shape the outcome 
in Syria, we have to be involved in what is going on not in 
terms of military intervention with troops on the ground except 
in the circumstance we have already discussed, extreme 
circumstances, but certainly in trying to shape the outcome in 
a way that prevents these worst case scenarios from happening.
    The Chairman. Well, I am glad you laid that out the way you 
just did because I think, with all due respect, I agree with 
the comments made by each of our other witnesses, but I think 
what you have just talked about is the strategic centerpiece of 
why it is critical for us not just to be involved, but to try 
extra hard to see if we cannot move the Russians to understand 
the dangers also to them of that flow of events and to the 
region as a whole. To me that is the centerpiece of this, which 
is a Sunni, Shia, sectarian, religious explosion that could 
have profound long-term impact.
    I do not think there is any such thing as a sort of 
permanent rump Alawite state. I think the Alawi would be 
enormously challenged if there were the complete implosion of 
the state. I mentioned earlier I think avoiding that, that is 
the threading of the needle here that is so vital, and that is 
why I think we have to look very carefully at all of these 
other alternatives that you have put on the table, gentlemen.
    So I thank you very, very much.
    Senator Webb has arrived. I have a 12 noon that I need to 
attend to and Senator Lugar does. So I will recognize Senator 
Webb, ask him to close out the hearing, if he would. Senator 
Shaheen, if you want another round----
    Senator Webb. Thank you, Mr. Chairman.
    I would like to ask some questions and then I may allow 
Senator Shaheen to close the hearing since I know she has 
several other questions as well.
    The Chairman. That is great. I appreciate that enormously.
    And let me thank our witnesses very, very much for being 
here today. We really appreciate it.
    Senator Webb.
    Senator Webb [presiding]. Thank you, Mr. Chairman.
    And gentlemen, I watched most of this hearing from my 
office. I followed the discussions, the statements that have 
been made and your answers. Watching the past 15 or 20 minutes 
caused me to want to come down here and ask a couple of very 
specific questions. I think they are important for the record 
and also for the challenges that we have been going through in 
terms of the unilateral use of Presidential power in our 
foreign policy particularly since the Arab Spring.
    But three issues come to mind here listening to the 
conversations that have taken place. And the first is: When 
does a regime, any regime, lose its legitimacy to the point 
that the international community decides that something needs 
to be done? And we are talking about Syria today, but I had a 
conversation with Secretary Panetta in the Armed Services 
Committee on this point when we were talking about Libya. And 
he had made a statement that any regime that deliberately takes 
the life of its own people who are involved in a peaceable 
dissent loses its legitimacy. And I said, would you include 
China in that category given the events of Tiananmen? Would 
that fall into that category? And he said personally, rather 
than as policy, he believed that it would.
    The second question from watching your discussions today 
is: What redlines actually exist in any of these situations 
where we might be calling for an intervention?
    And a third, which really compelled me to come down here to 
hear your views, is: How is it decided? This issue was brought 
up. How was it decided then--Ambassador Indyk, it was your 
comment about--I think it was you who made the comment about, 
well, if you would have an arbitrary line, if it is 100, if it 
is 200 where the line is, it kind of might even confuse the 
situation even more on the ground. So how is it decided that 
the United States itself should get involved in these 
situations? Chairman Kerry said, should this be NATO? Should it 
be a United Nations Security Council vote? Should it be the 
encouragement of the Arab League?
    And I would say that when it comes to this relatively new 
concept of humanitarian intervention, that the best way that we 
should be resolving that question is to put it to a vote in the 
United States Congress. We never even got a floor debate on 
Libya. I just think that is wrong. I think if the 
administration had properly put the issue before the Congress, 
the likelihood is that it would have been supported. But you 
begin to see, listening to the discussions that are taking 
place today and the gradations that are involved in the events 
that we would be looking at in these countries, how important 
it is in my opinion that we resolve that by a vote here.
    And so I would like your thoughts on those three points and 
what seems to me to be missing here. Ambassador Indyk?
    Ambassador Indyk. I think that the Panetta rule is the 
right one, but a regime that starts firing on its own people by 
definition is losing its legitimacy. It has lost all legitimacy 
and therefore should step aside. I would say that is something 
the people who are affected by this should be the ones to 
decide that because legitimacy supposedly comes from the 
people. What does it mean to lose legitimacy? But you are 
dealing with authoritarian regimes, and the people do not get 
to express themselves through the ballot box. But when you see 
large-scale demonstrations against the regime and the hundreds 
of thousands and millions in the case of Syria all across the 
country and the regime responds by opening fire on peaceful 
protestors, then I think you can say it walks like a duck. They 
have lost the legitimacy.
    Senator Webb. So if Tiananmen occurred today with the 
Chinese Government rolling out tanks and killing hundreds, if 
not thousands, of its own people, that it would also fit the 
Panetta rule.
    Ambassador Indyk. Yes, I think that is right. As an 
objective standard, they would have lost legitimacy if they 
fired on their people in that way.
    One of the redlines--we went through a lot of that 
discussion, but I think that use of weapons of mass destruction 
is a clear redline. Massacres and ethnic cleansing should be a 
redline. We have already seen some but they are limited in 
scope. I am talking about large-scale massacres should be a 
clear redline.
    How is it decided? I mean, yes, I think you are right that 
the people's houses should have a decision--should have a say 
in when the nation goes to war. But in the Libyan case it seems 
to me a little less clear-cut. There was a clear and immediate 
danger that needed to be addressed. There was not time to take 
a vote. And one can anticipate the kinds of interventions we 
have been talking about today, and I think there is more time 
to have that discussion just as I do not think that we should 
be intervening unless we have the support of the international 
community with us well. So it is both of those things. But 
ultimately we should be doing those things, but the bottom line 
is they should not hold us up from intervening if it means 
enforcing those redlines.
    Senator Webb. Well, I would submit to you there was plenty 
of time in Libya. We had months once the initial action was 
taken. There were a number of us, including Senator Corker and 
myself, who were asking this to be brought up for debate. The 
situation we had with the humanitarian intervention is kind of 
unique in our history. I just do not think we have resolved 
this properly in terms of the balance of power between the 
executive and legislative branch, unique because--and you 
obviously know--there is not a treaty involved, we are not 
under attack, we are not under imminent attack, we are not 
responding to situations where we are rescuing Americans. It is 
clearly a unilateral decision, and in my view, time not being a 
factor, it ought to be brought up here.
    Gentlemen, would you like to add anything else? I am now 
taking up Senator Shaheen's time.
    Ambassador Dobbins. As I said in my testimony, I think that 
any international intervention, U.S. or otherwise, three 
questions have to be answered affirmatively before it is going 
to happen. First of all, do you have an adequate justification, 
which is part of your question, you know, what is the 
threshold? Second, do you have a prospect of success? And 
third, do you have sufficient interests engaged to make the 
costs and risks worthwhile? You have to answer all three of 
those questions positively.
    In the Chinese case, you might argue that you have gotten 
the first one. You know, Tiananmen Square might have provided a 
justification. You certainly had absolutely no prospect of 
success, and your interests would not have compelled U.S. 
military intervention. And so even if you cross the first 
threshold, you have not crossed the other two.
    Now, in terms of what justifies, the international 
standards have changed. You now have an international standard 
which was adopted by a global summit which is called the 
``responsibility to protect,'' and what it says is that 
governments have a responsibility to protect their citizens, 
and when they fail that responsibility in some serious way, the 
international community has a right to intervene to take over 
that responsibility to protect those citizens. So that is now a 
global standard, which of course you can then debate endlessly 
in any particular situation, but I think with respect to Libya 
and now to Syria, most of the world believes that particular 
threshold has been crossed.
    Senator Webb. Let me just quickly respond to both points 
you just made so that we can see if Mr. Tabler wants to say 
anything before I yield to Senator Shaheen.
    With respect to the Tiananmen situation, the point to be 
made is if we stand for anything as a country, then we would 
have an obligation to declare those sorts of acts of a 
magnitude that we would not recognize the validity of that 
government. I think that is really the point, whether we would 
intervene directly or not. You cannot have two different 
standards just because one country is more powerful than 
another country in terms of the validity of a regime.
    Ambassador Dobbins. I think you are confusing recognition 
with legitimacy.
    Senator Webb. No, I am not confusing either. If the 
government is so repressive that it deliberately kills its own 
people--that is the standard where you say that government no 
longer has validity--then it does not matter how powerful that 
government is.
    And second, with respect to the responsibility to protect, 
I understand the concept. My position is, my belief is that 
when you make that determination, you should be making it in 
the U.S. Congress not by one individual of whichever party who 
happens to be the President.
    Ambassador Dobbins. I do not disagree.
    Senator Webb. Mr. Tabler, would you like to add anything?
    Mr. Tabler. I am OK.
    Senator Webb. Thank you.
    Senator Shaheen.
    Senator Shaheen [presiding]. Thank you and I appreciate the 
patience of each of you testifying. I know we have gone beyond 
the time that we promised to keep you here, but I had one final 
question. It is not as philosophical and broad as Senator 
Webb's.
    But in the discussion that I have heard, there has not been 
any reference to the idea of safe zones in Syria, and that is 
something that a number of people have called for. And I just 
wanted to get your thoughts about that and what would really be 
involved in setting up a safe zone. And could it be effective?
    Mr. Tabler.
    Mr. Tabler. I will try and answer that as best I can. I 
think that it depends on what triggers the creation of a safe 
zone. And if we look at other cases and sort of compare to the 
trajectory of the struggle in Syria, I think what is very 
likely to happen is something akin to the Balkans. So you have 
this grinding conflict between the regime and the opposition. 
Already areas of the country are outside the government's 
control, but they can still reassert themselves in those areas. 
If the opposition takes a stand and the regime tries to 
reassert itself and fails, the opposition could simply plant 
the Free Syria flag in the ground and declare liberated 
territory. That would then be similar to the Balkans.
    That then would put Turkey and I think the United States 
and its allies in a dilemma. What do you do because the regime 
is going to throw everything they can at that to make sure that 
that is no longer valid. That is going to drive up refugees 
flows into Turkey, death tolls, internally displaced persons. 
And then the question is, What do we do to protect that area? 
And there is a whole escalation chain that goes along with 
that, that goes the whole way from sending in troops, for 
example, from Turkey or air strikes.
    But I think there is a general lesson from the Balkans that 
you do not create safe zones that in some ways just set 
themselves up to be possible hostages going forward. And I 
think that policymakers are aware of that. And the question is, 
How would that apply to Syria? And again, I think it is going 
to be driven by how this unfolds on the ground.
    Senator Shaheen. But when you talk about the importance of 
being able to actually defend and preserve a safe zone, are you 
not ultimately talking about needing to have boots on the 
ground from some place?
    Mr. Tabler. Yes. I mean, it would depend on where. There 
are a number of border areas of Syria where this is, I think, 
likely, for example, a pocket north of Aleppo, Idlib province, 
Daraa, even eastern Syria. All of these areas it could happen. 
It would depend on what the--you know, the country was able to 
intervene.
    I think in the case of Turkey, that is a possibility 
because they are well placed to do that. In Lebanon and Iraq, 
even Jordan, it is more difficult.
    Senator Shaheen. Thank you.
    Ambassador Dobbins. I think you might plausibly or possibly 
be able to defend a safe zone with air power alone. For 
instance, the United States and its allies defended Benghazi 
with air power alone.
    Senator Shaheen. I understand that but the situation is a 
little different in Syria. Is it not?
    Ambassador Dobbins. Well, you could probably not defend all 
safe zones, but you might be able to defend safe zones where 
the combination of insurgent capacity on the ground and a 
commitment of air power would provide a reasonable degree of 
security if you were prepared to commit air power to that 
extent. I mean, you would need to get an expert. But air power 
has certainly shown in Libya the capacity not only to create 
safe zones but to push them, to extend them ever forward.
    Senator Shaheen. Sure. But I assume that assumes that the 
Syrian military is not able to strike out air power that would 
come in to defend those safe zones, and there is some capacity 
to do that right now.
    Ambassador Dobbins. If they challenged, then you would have 
to take out their air defenses, which would be a major 
operation, but probably more feasible than actually putting 
troops on the ground except in maybe a very limited geographic 
area. I would defer to Andrew, but my guess is the Syrian 
opposition does not want foreign troops on the ground.
    Senator Shaheen. Thank you.
    Ambassador Indyk. Well, just as a practical matter, the 
Turks have made clear in several statements by their Prime 
Minister, their Foreign Minister. They have called for 
humanitarian corridors which are, in effect, safe havens. And I 
think that is the most likely circumstance in which it would 
come about, that is to say, the Turkish Army would provide the 
boots on the ground that you are talking about to protect a 
safe haven for the Free Syrian Army and all of the refugees 
that are now flowing across the border into Turkey and are 
being housed on the Turkish side of the border. I mean, if we 
get a massive refugee flow, that would become the justification 
for doing that. And as a NATO member, there might well be a 
need for NATO to provide the kind of air cover that we have 
discussed here. So as a practical matter, that is the way I 
could see it unfolding and it may be coming soon, depending 
on--I think the trigger will be the refugee situation, the 
refugee flow of a major nature toward the Turkish border.
    Ambassador Dobbins. Another just example of this was what 
we did in the Kurdish areas of Iraq after the first gulf war 
when the Turks who feared a large influx of Kurdish refugees, 
which was the last thing they wanted, put pressure on the U.S. 
Government to force Saddam to essentially give up those areas, 
and we used exclusively air power to do that.
    Senator Shaheen. But I guess the point I was--and you have 
indicated, Ambassador Dobbins, that at least given the current 
circumstances of the Syrian military, that there could be some 
significant collateral damage as the result of taking that kind 
of action. Did I understand you to agree with that?
    Ambassador Dobbins. Yes. I said that we managed to conduct 
the air wars in Bosnia, Kosovo, Afghanistan, Iraq, and Libya 
without losing a single pilot. We probably could not replicate 
that with respect to Syria.
    Ambassador Indyk. But I would just say that on the other 
side, although that is certainly possible, the Syrian Army is 
under huge strain already, and we have pilots flying and 
defecting, taking their aircraft to Jordan and so on. And we 
have seen in the past when the Turkish Army mobilizes, the 
Syrian Army was not prepared to confront them. So although 
there is potential for the kinds scenarios that you just 
discussed, I actually think the risk is lower than we fear. But 
it has to be a Turkish lead in my judgment. I do not see it 
working in any other way.
    Senator Shaheen. Well, thank you all very much. We 
appreciate your willingness to stay so long and all of your 
insights.
    At this point, I will close the hearing.
    [Whereupon, at 12:30 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
